Semiannual Report
 to the Congress
October 1, 1993 - March 31, 1994




   u.s. General Services Administration
       Office of Inspector General
\
        Foreword

This report summarizes the Office of Inspector General's
(OIG) activities between October 1, 1993 and March 31,
1994. I would like to highlight several accomplishments
that are important to both the OIG and GSA.

With the goal to reinvent Government, we continued to help
GSA improve its peiformance in canying out its mission.
The OIG recommended over $147 million "infunds to be
put to better use and questioned costs." Our internal audits
resulted in 61 reports which included recommendations to
strengthen program management. Our review of a
management information system provided by one of the
FTS2000 vendors found a mqjor internal control weakness
reportable under the Federal Managers' Financial Integrity
Act.

Our investigative activities included the conviction of a
prospective supplier for forwarding false information in
connection with a contract bid to GSA. Also, two Federal
suppliers agreed to pay $271,485 to settle their potential
civil liability under the False Claims Act.

I want to take this opportunity to thank the GSA
Administrator and Members of Congress for their
unwavering support. I also want to commend the
contributions of each OIG employee to our achievements
during the past 6 months.




WILLIAM R. BARTON
Inspector General
April 30, 1994
  Table of Contents

                                                                                           Page

Summary of OIG Perfonnance .............................................................v

Overview and Focus on OIG Activities ............................................... vii

Organization, Staffing, and Budget ..................................................... 1

Procurement Activities ........................................................................ 2

Agency Operations .............................................................................. 5

Prevention Activities ......................................................................... 14

Review of Legislation and Regulations ............................................... 17

Statistical Summary of OlG Accomplishments ................................. 19

Appendices

Appendix I - Significant Audits from Prior Reports ............................ 27

Appendix II - Audit Report Register ................................................... 29

Appendix III - Delinquent Debts ........................................................ 51

Appendix IV - Reporting Requirements .............................................. 52




                                                            Office of Inspector General iii
               Summary of OIG Performance

OIG Accomplishments   Total Financial Recommendations                 $147,233,249

                      • Recommendations That Funds Be
                        Put to Better Use                             $137,642,212

                      • Questioned Costs                                $9,591,037

                      Audit Reports Issued                                  262

                      Investigative Referrals                               237


Results Attained      Management Decisions and Other
                      Savings Achieved                                $118,927,308

                      Indictments and Informations                           10

                      Successful Criminal Prosecutions                       16

                      Civil Settlements                                       4

                      Contractors Suspended/Debarred                         79

                      Employee Actions Taken                                 22




                                                         Office of Inspector General v
           Overview and Focus on DIG Activities

                   This report, submitted pursuant to the Inspector General Act oj 1978, as
                   amended, chronicles the activities oj the General Services
                   Administration's Office ojInspector General. It is the thirty first report to
                   the Congress since the appointment oj GSA's first Inspector General.

Overview           Procurement Activities
                   Significant OIG audits and investigations resulted in:

                   ..   Two civil fraud settlement agreements resulting in $271,485 in
                        recoveries.

                   ..   Improved process for awarding Travel Management Center
                        contracts.

                   ..   Convictions of a former GSA employee and the owner of a paint
                        supply company for accepting and providing gratuities.

                   ..   Conviction of a prospective supplier of household appliances for
                        forwarding false information in connection with a contract bid to
                        GSA.

                   Agency Operations
                   In a series of internal reviews, we advised management of the need to:

                   ..   Enforce contract provisions essential for GSA's oversight of one
                        FfS2000 contractor.

                   ..   Determine GSA's role regarding FfS2000 revenue allocation.

                   ..   Improve billing information provided to Federal agencies for
                        FfS2000 services.

                   ..   Maximize the use of direct delivery and remove slow moving items
                        from the stock program.

                   ..   Improve management of long supply inventory at distribution
                        centers.

                   ..   Improve control over the acquisition, assignment, and disposal of
                        firearms and ammunition.

                   Prevention Activities
                   OIG prevention activities included:

                   ..   Preaward reviews of 167 contracts with an estimated value of
                        $1. 1 billion.




                                                                  Office of Inspector General vii
                Overview and Focus on OIG Activities

                                  e      Integrity Awareness Briefings of 478 GSA employees.

                                  ..     Advisory reviews of 4 lease proposals aimed at heading off
                                         potential problems.

Focus                             This period we continued our focus on significant Governmentwide
                                  areas, such as the FfS2000 telecommunications system and
                                  procurement fraud. We also continued to implement concepts reflected
                                  in the National Performance Review. We are committed to
                                  accomplishing our mission as defined by the Inspector General Act
                                  while at the same time working to serve as a valued in-house
                                  consultant to GSA management.

                                  Our recent effort to specialize audit services and consolidate expertise
                                  is resulting in higher quality, more useful reports for GSA
                                  management. Our audit program strives to provide information aimed
                                  at helping the Agency achieve more positive outcomes such as better
                                  customer service, lower cost operations, lower contract prices, quicker
                                  results, and better control over services. We are dedicating substantial
                                  resources to the rapidly growing area of program evaluation. OIG
                                  program reviews provide GSA management with independent
                                  assessments of how well programs are meeting their missions and
                                  point out specific practices affecting results. These evaluations not only
                                  suggest needed improvements, they also point out what is working
                                  right at GSA.

                                  We will continue programs which ensure proper stewardship over
                                  taxpayer resources. Guided by the requirements of the Chief Financial
                                  Officers Act, we oversee annual audits of the Agency's consolidated
                                  financial statements, financial systems, and related internal controls.
                                  We are expanding our efforts in this area to include the validation of
                                  key program performance measures reported in the narratives
                                  accompanying the financial statements.

                                  Our investigations program is aimed at protecting the integrity of GSA's
                                  programs and operations by detecting and preventing fraud and other
                                  illegal conduct. By identifYing systemic and procedural weaknesses, we
                                  further assist GSA management in improving program efficiency and
                                  effectiveness. A major emphasis is placed on initiating national
                                  proactive investigations resulting from preliminary indications of fraud
                                  or abuse called to our attention by OIG staff, GSA personnel,
                                  Government contractors, and the OIG Hotline. Because of the
                                  significant dollar volumes involved and the potential for abuse, we
                                  particularly focus our efforts on the detection of fraudulent activity
                                  associated with GSA's broad procurement, property disposal, and
                                  leasing responsibilities.




viii Semiannual Report To The Congress
Overview and Focus on OIG Activities

        We are continuing our efforts to achieve a total quality environment.
        Through both formal total quality efforts and our progress in
        "internalizing" total quality principles, we continue to critically examine
        our day-to-day tasks to find ways to streamline operations, improve
        services, and enhance employee morale.

        Weare pleased that our accomplishments this period have reflected
        such tangible benefits to the taxpayer and the Government and look
        forward to the challenges this dynamic time presents. We will continue
        our efforts to improve our own operations and to be an effective and
        positive force for improvement in the Agency. The personnel of the OIG
        are committed to continuing their tradition of service to GSA, its
        customers, and the American taxpayers.




                                                      Office of Inspector General ix
               Organization, Staffing, and Budget

                      Pursuant to the Inspector General Act oj 1978, an Office oj Inspector
                      General was established within the General Services Administration on
                      October 1, 1978, As currently configured, the OIG consists oj six units
                      that junction cooperatively to peiform the missions mandated by the
                      Congress.

                      The OlG provides nationwide coverage of GSA programs and activities.
Organization          It consists of:

                      ..   The Office of Audits. a multidisciplinary unit staffed with
                           financial and technical experts who prOvide comprehensive
                           coverage of GSA operations with program evaluations as well as
                           reviews of GSA contractors.

                      ..   The Office of Investigations, an investigative unit that manages a
                           nationwide program to prevent and detect illegal and/ or improper
                           activities involving GSA programs, operations, and personnel.

                      ..   The Office of Counsel to the Inspector General. an in-house
                           legal staff that provides legal advice and assistance to all OIG
                           components, represents the OlG in litigation arising out of or
                           affecting OIG operations, and prepares OIG comments on proposed
                           legislation.

                      ..   The Office of Administration, a centralized unit that provides
                           information systems support, handles budgetary, administrative,
                           and personnel matters, and formulates OIG comments on
                           proposed regulations and GSA policy issuances.

                      ..   The Office of Quality Management. an in-house staff that
                           promotes and coordinates the total quality process within all OlG
                           components, and coordinates quality improvement initiatives with
                           other Federal entities.

                      ..   The Internal Evaluation Staff. an analytical unit reporting
                           directly to the Inspector General that plans and directs an in-
                           house assessment program, including field office appraisals and
                           sensitive reviews of orG operations.

                      The OIG is headquartered in Washington, DC, at GSA's Central Office
Office Locations      building. Field audit and investigations offices are maintained in
                      Boston, New York, Philadelphia, Atlanta, Chicago, Kansas City, Fort
                      Worth, San Francisco, Auburn, and Washington, DC. Investigative
                      sub-offices are also maintained in Cleveland and Los Angeles.

                      The OIG started Fiscal Year 1994 with a total on-board strength of
Staffing and Budget   409 employees.

                      The OIG's Fiscal Year 1994 budget is approximately $34.9 million.



                                                                   Office of Inspector General   1
                               Procurement Activities

                                    GSA is responsible for providing space for almost 1 million Federal
                                    employees. GSA, therefore, acquires buildings and sites, constructs
                                   facilities, and leases space as well as contracts for repairs, alterations,
                                    maintenance, and protection of Government-controlled space. GSA also
                                    operates a Governmentwide service and supply system. To meet the
                                    needs of customer agencies, GSA contracts for billions of dollars worth
                                    of equipment, supplies, materials, and services each year. We review
                                    these procurements on both a preaward and postaward basis to ensure
                                    that the taxpayers' interests are protected. We peTjorm approximately
                                    400 reviews each year.

Significant OIG                    Civil Settlements
Accomplishments                    This period, the Government entered into four civil settlement
                                   agreements negotiated by representatives of the Department of Justice
                                   and the GSA OIG. These agreements reflect the ongOing efforts of the
                                   OIG to pursue cases involving procurement fraud and practices which
                                   threaten the integrity of the Government's procurement process.
                                   Highlights of selected cases follow.

                                   $271,485 in Civil Settlements
                                   The Government entered into two separate civil settlement agreements,
                                   one with a supplier of computer tape and the other with a supplier of
                                   paint stripping material. The companies agreed to pay the Government
                                   a total of $271 ,485 to settle their potential civil liability under the False
                                   Claims Act.

                                   .. Under the terms of the first agreement, the computer tape supplier
                                      agreed to pay $146,485. The OIG conducted an investigation after a
                                      GSA employee reported that there were problems with the computer
                                      tape furnished by the company. Our review disclosed that the firm
                                      provided used tape instead of new tape as required by the contracts.

                                   .. The second agreement provided that the supplier of paint stripping
                                      material pay $125,000 to the Government to settle its potential civil
                                      liability. The agreement arose out of an audit and investigation that
                                      showed the contractor failed to pass along price reductions and
                                      aggregate sales discounts to which the Government was entitled
                                      during the course of a 3-year contract.

                                   Awarding Travel Management Center Contracts
                                   We evaluated the solicitation preparation and award process used by
                                   GSA in awarding Travel Management Center contracts in one region.
                                   Travel Management Centers provide ticketing and other travel services
                                   to Federal agencies. Although many functions were performed
                                   adequately, some areas could be improved.




2   Semiannual Report To The Congress
Procurement Activities

 GSA activities need to adhere to established internal control procedures
 when awarding contracts. We found that contracts were evaluated and
 awarded without regard for existing procedures. Key documents were
 not always complete and changes were not always signed, dated, or
 explained. Many of the conditions could have been identified and
 corrected by supervisory review.

 Finally, we noted that travel management operations and procurement
 functions were closely entwined and reported to the same individual.
 The existence of such an organizational structure and operational
 relationship is in conflict with the need to separate key duties and
 responsibilities.

 The March 14, 1994 report included recommendations that the
 Regional Administrator:

 .. Improve award documentation and supervisory review.

 .. Explore options for separating key functions performed by the Travel
    Management Center.

 The Regional Administrator agreed with the recommendations in the
 report. The audit is still in the resolution process.

 Government Employee Accepting Gratuities
 Ajoint OIG and Department of Veterans Affairs investigation resulted
 in the convictions of a former GSA employee and the owner of a retail
 paint supply company for accepting and providing gratuities.

 The investigation found that the former GSA employee used his official
 capacity to direct GSA and Department of Veterans Affairs contracts for
 paint and related supplies valued at approximately $50,000 to the
 owner of the supply company. In exchange, the former GSA employee
 received payments from the owner amounting to $2,100.

 The former employee pled guilty to accepting a gratuity from a
 Government supplier. He was placed on 2 years probation. The owner
 of the retail paint supply company pled guilty to providing a gratuity to
 a public offiCial and was placed on 3 years probation, ordered to
 perform 200 hours of community service, and fined $10,000.

 Contract Bid-Rigging
 A prospective supplier of household appliances was convicted for
 forwarding false information in connection with a contract bid to GSA.

 The investigation was initiated when an offeror alleged that the
 appliance firm official offered him a bribe to price-fix bids on a GSA
 contract solicitation. The investigation disclosed that the collusive


                                               Office of Inspector General 3
                               Procurement Activities

                                   agreement was intended to divide the national market for the
                                   appliances being offered to GSA between the two competitors. The
                                   purpose of the agreement was to prevent the two offerors from fairly
                                   bidding against each other, and restricting fair and open competition in
                                   Government contracting.

                                   The supplier was sentenced to 3 years probation, ordered to pay a
                                   $5,000 fine, and ordered to perform 100 hours of community service.
                                   Also, the supplier, his company, and an affiliated firm were suspended
                                   from doing business with the Government and a debarment
                                   determination is pending.




4   Semiannual Report To The Congress
                  Agency Operations

                  GSA is a central management agency that sets Federal policy in such
                  areas as Federal procurement, real property management, and
                  telecommunications. GSA also manages diversljled Government
                  operations involving buildings management, supply facilities, real and
                  personal property disposals and sales, data processing, and motor
                  vehicle and travel management. In addition, GSA manages over
                  135 accounting funds and provides cross-servicing supportfor client
                  agencies. Our audits examine the efficiency, effectiveness, and integrity
                  of GSA programs and operations and result in reports to management.
                  Our internal audits program is designed tofacilitate management's
                  evaluation and improvement of control systems by identifying areas of
                  vulnerability and including recommendations for improvement. This
                  period, the OIG peiformed 61 internal reviews on Agency program areas.


Significant DIG   FTS2000
Accomplishments   The OIG continued to review important aspects of the FfS2000 system.
                  This service provides Federal agenCies with long-distance
                  telecommunications services provided by two vendors. At a potential
                  cost of $25 billion, it has been characterized as the largest private
                  telecommunications system in the world, as well as the largest non-
                  space civilian-agency procurement.

                  .. Management Information System Reports
                    We assessed the management information system provided by one of
                    the FfS2000 vendors. GSA relies on the data supplied by the system
                    to present an accurate picture of the contractor's performance.

                    The FfS2000 contract requires vendors to provide GSA with a totally
                    automated system for independently verifYing contractor
                    performance data. The audit disclosed that the vendor had not
                    provided the totally automated system, and that the performance
                    data supplied to the Agency was deficient. The vendor changed
                    historical performance data without GSA's knowledge, making the
                    data unreliable.

                    We concluded that the system is not useful to GSA for accomplishing
                    its contractor performance oversight mission. This condition
                    constitutes a major internal control weakness reportable under the
                    Federal Managers' Financial Integrity Act.

                    The October 19, 1993 report recommended that the Commissioner,
                    Information Resources Management Service, and the Associate
                    Administrator, Office of FfS2000:

                    .. Enforce contract provisions which are intended to provide GSA
                       with the data capacity to verifY performance levels reported by the
                       contractor.




                                                               Office of Inspector General 5
                                   Agency Operations

                                        .. Seek appropriate compensation from the contractor until reliable
                                           and accurate performance data is supplied to GSA.

                                        Responsive action plans were provided for implementing the report
                                        recommendations.

                                   .. Business Allocation
                                        The OIG reviewed GSA's administration of the FTS2000 business
                                        allocation. The FTS2000 contracts were awarded based on an
                                        approximate 60 percent and 40 percent allocation of the antiCipated
                                        business between two contractors.

                                        GSA is required to consider the revenue allocation impact before
                                        assigning a new customer to one of its two long distance networks.
                                        However, there is disagreement concerning the meaning and intent
                                        of the contract clause governing the assignment of new users. The
                                        report pOinted out that the contract clause identified a criterion
                                        which would attempt to maintain the allocation percentage for the
                                        contract period. This language produced many different
                                        interpretations of GSA's role in determining contractor revenue
                                        allocation.

                                        We concluded that GSA should view the contractor revenue
                                        allocation as one of several factors influencing a new user
                                        assignment decision. Fixed revenue allocation is not a contractual
                                        guarantee to either contractor. The Agency has little effective method
                                        for controlling revenue allocation over the life of the contracts, nor is
                                        control over revenue allocation through costly and disruptive user
                                        reaSSignments desirable.

                                        The review also disclosed that a monthly revenue report prepared by
                                        a contractor duplicates information in GSA's own management
                                        report. Eliminating the duplication could save about $33,062, which
                                        is the estimated annual cost of the contractor's reports.

                                        The December 15, 1993 report recommended that the Associate
                                        Administrator, Office ofFTS2000:

                                        .. Determine GSA's role concerning contractor revenue allocation,
                                           and state this in future solicitations.

                                        .. Modity the GSA contract to eliminate the duplicated monthly
                                           report.

                                        Responsive action plans were provided for implementing the report
                                        recommendations.




6   Semiannual Report To The Congress
Agency                erations

• Payments to Contractors and Billings to Customer Agencies

  A review of payments to contractors and billings to customer
  agencies for FTS2000 service showed that GSA paid invoiced
  amounts and billed customer agencies timely and accurately. The
  OIG also identified opportunities to improve financial management.

  Customer agencies need to report regularly to GSA on efforts to verity
  the accuracy of the vendor charges so GSA has a reliable basis to
  certity payments to contractors. However, many customer agencies
  were unable to verity the validity of their calls because the bills
  lacked detailed information. While Automated Number Identifier
  switches can provide desired caller detail, the cost of this service
  needs to be considered.

  To expedite the resolution of disputed amounts, the report suggested
  that GSA should, as directed by the contracts, require the vendors to
  resolve disputed charges within 30 days. Also, GSA should withhold
  payment of disputed amounts from future billings and only pursue
  disputed amounts that are cost-effective. In addition, the review
  showed that GSA needs to document all reimbursable funding
  agreements.

  The October 29, 1993 report recommended that the Associate
  Administrator, Office of FTS2000:

  II   Make Automated Number Identifier switches available where cost
       effective.

  " Implement contract requirements and pursue only cost-effective
    billing disputes.

  II   Obtain funding agreements from all customer agencies.

  Responsive action plans were provided for implementing the report
  recommendations.

Theft of Government Property
An OIG investigation resulted in the convictions of a former state
trooper, and a director and a captain in the rescue squad on conspiracy
and theft of Government property charges. An investigation was
initiated following allegations from the Tennessee Bureau of
Investigations concerning the theft of U.S. Government surplus
property.

The investigators found that the former state trooper, director, and
captain obtained surplus property from GSA warehouses by claiming
the property was to be used by the rescue squad, a legitimate donee.
The subjects transported the property to a commercial surplus supply


                                             Office of Inspector General 7
                                   Agency Operations

                                   store owned by the state trooper, and sold it to the general public for
                                   personal profit. The Government property was valued at $682,600.

                                   On January 20, 1994, the former state trooper and owner of the supply
                                   store was found guilty of conspiracy and theft of Government property
                                   and sentenced in U.S. District Court to 10 months incarceration and
                                   3 years parole. Previously, the director and captain pled guilty to
                                   conspiracy and theft of Government property. Sentencing has not been
                                   scheduled for these two subjects.

                                   Inventory Management
                                   This period we assessed the management of the stock program which
                                   makes available to customers about 19,000 items carried in depots.
                                   Each year, GSA processes about 7 million orders for stock items,
                                   representing about $1 billion in sales and an average inventory value of
                                   about $250 million.

                                   We examined customer ordering patterns and evaluated items stocked
                                   in the depots. Our analysis revealed that approximately $60 million
                                   could be saved by increasing direct delivery programs, discontinuing
                                   items which are more economically provided through nonstock
                                   methods, and removing slow moving and low dollar value items from
                                   the depots.

                                   The review pOinted out that customers could save money by having
                                   items shipped directly from the supplier. Although delivery time might
                                   be a little longer, customers should be given this option at the time of
                                   their initial order. Increased direct delivery would result in lower item
                                   cost, as well as reducing inventory and investment levels. Restocking
                                   Department of Defense warehouses by direct delivery rather than from
                                   GSA depots would save Significantly. Also, since about 32 percent of
                                   stock items account for 95 percent of sales, significant improvements
                                   could be realized by better managing slow moving and uneconomical
                                   items.

                                   The December 29, 1993 report recommended that the Commissioner,
                                   Federal Supply Service:

                                   .. Maximize the use of direct delivery.

                                   .. Ensure that items are stocked only when it is the most economical
                                      method of supply.

                                   .. Develop procedures for removing slow moving items from stock.

                                   The Commissioner generally agreed with the recommendations in the
                                   report. The audit is still in the resolution process.




8   Semiannual Report To The Congress
Agency Operations

Diversion of Federal Surplus Property
Ajoint OIG and Defense Criminal Investigative Service investigation
resulted in the convictions of a community college instructor and his
son for theft of Government property. An investigation was initiated
upon receiving information from the Defense Logistics Agency that
200 diesel marine engines had been obtained by the community college
through the GSA Federal Surplus Property Donation program. It was
also learned that the diesel engines were being advertised for sale to the
general public.

The investigation disclosed that an instructor for the community college
was authorized to acquire Government surplus property to be used
for the college's vocational training program. Between May 1991 and
April 1992, the instructor, assisted by his son, obtained the engines on
behalf of the college and immediately resold them for his own profit to
an engine repair firm in violation of program requirements. Further, the
instructor acquired additional Government property which he
converted and sold for personal profit. In April 1992, the Government
executed search warrants at various locations and seized Government
property valued at more than $5 million. Items seized included
200 diesel engines, 2 cranes, 3 aircraft tow tractors, several trucks and
other vehicles, and numerous compressors, generators, turbochargers,
welding machines, trailers, and other items of commercial value.

On February 14, 1994, the instructor and his son were sentenced in
U.S. District Court after pleading guilty to theft of Government
property. The instructor was sentenced to 41 months imprisonment,
3 years probation, and ordered to pay $30,000 in restitution. His son
was sentenced to 24 months imprisonment, 3 years probation, and
ordered to pay restitution of $15,000.

Distribution Centers
This period, we evaluated the long supply inventory at GSA's four
wholesale supply distribution centers. Items are considered long supply
when the estimated time period to exhaust the inventory is excessive,
often caused by reduced product demand. Long supply ties up capital
and warehouse space, and is more susceptible to damage and
deterioration.

We found that the centers were writing off usable long supply stock
instead of processing it through the excess disposal system, resulting
in lost accountability and manageability. This situation contributed to a
condition where usable stock was being donated to State agenCies while
the distribution centers were processing new orders for the same stock.

During reviews at two distribution centers, we found that maintenance
and testing of stock locator systems were inadequately performed. Not
maintaining the accuracy of these systems could lead to errors in the



                                              Office of Inspector General 9
                                 Agency Operations

                                 filling of orders or the inability to fill orders. Finally, several operational
                                 weaknesses impeded the inventory surveillance branch's ability to
                                 review and monitor inventory levels and warehouse activities.

                                 The reports included recommendations to the Commissioner, Federal
                                 Supply Service, and Acting Regional Administrators to:

                                 • End long supply inventory write-offs and transfer long supply
                                   inventory to excess stock.

                                 • Have stock locator personnel update stock location records.

                                 • Ensure that the inventory surveillance branch has independent
                                   authority and responsibility to carry out its duties.

                                 Responsive action plans were provided for implementing the reports'
                                 recommendations.

                                 Theft Convictions
                                 Two GSA employees were sentenced in U.S. District Court after
                                 pleading guilty to theft of Government property. One employee was
                                 placed on 18 months probation and fined $500. The other employee
                                 was placed on 1 year probation and fined $500. These sentences
                                 concluded an investigation in which a total of eight GSA employees
                                 pled guilty, were placed on various terms of probation, and ordered to
                                 pay fines for theft of Government property from a GSA Distribution
                                 Center. As a result of these guilty pleas, four employees resigned from
                                 Government service, one retired, and administrative action is pending
                                 for the other three employees.

                                 An investigation was initiated following allegations that a GSA
                                 employee improperly furnished another Federal employee Government
                                 property obtained from a GSA Distribution Center. The Federal
                                 employee became suspicious that he had received stolen property
                                 because it was still in the original containers bearing GSA issued
                                 national stock numbers. The investigators found that the property had
                                 been stolen and the subject was acting in collaboration with other GSA
                                 employees to steal GSA property from the Center.

                                 Federal Protective Service
                                 The OIG completed several regional reviews of the Federal Protective
                                 Service Division operations. The Division provides physical protection
                                 for buildings owned or occupied by the Federal Government under the
                                 charge and control of GSA. The Division uses its uniformed staff and
                                 contract guards to perform these duties.

                                 We found that the firearms inventory records need to be maintained
                                 more accurately and completely. Better precautions need to be taken


10 Semiannual Report To The Congress
Agency Operations

concerning the safekeeping of firearms and ammunition. For example,
we observed loaded weapons stored in gun lockers and ammunition
stored on a shelf with administrative equipment. Also, the facilities for
safely loading and unloading weapons were inadequate.

In one region, ammunition was missing, a firearm was issued to an
unqualified employee, and some personnel had not requalified in
weapons use. In the same region, the control centers failed to respond
to a significant number of intrusion alarms tested. Also, existing alarm
reporting systems required manual intervention which prevented timely
response.

The December 15, 1993 and March 25, 1994 reports included
recommendations that the Regional Administrator and Acting Regional
Administrator:

• Implement an inventory system to track the acquisition, assignment,
  and disposal of firearms and ammunition.

• Improve safety conditions relative to the loading and unloading of
  firearms.

• Evaluate the functions, duties, and operations of the control centers.

The Regional Administrator and Acting Regional Administrator agreed
with or took no exceptions to the recommendations in the reports. The
audits are still in the resolution process.

Lease Acquisition Program
GSA is responsible for the acquisition and assignment of space. When
Government-owned space is not available to meet agency needs, GSA
leases commercial space to fill the need.

We reviewed a regional lease acquisition program and found that
customer agencies were very satisfied with the quality of space leased.
Although the Agency has improved space delivery time, we found
opportunities for improving the leasing program.

The report disclosed that GSA could increase competition by actively
contacting potential lessors, encouraging their submission of offers,
and increasing the offerors' understanding of lease requirements. This
should allow lessors to reduce reliance on brokerage firms and
eliminate the added fees which ultimately show up as higher rental
rates. Currently, some brokers represent multiple lessors for the same
procurement and, therefore, have access to information which can
adversely affect competition.




                                             Office of Inspector General   11
                                 Agency Operations

                                 GSA has used fast track procedures to award increased numbers of
                                 small leases. We believe that this program should be expanded. Also,
                                 implementing a simple time reporting system could help reduce space
                                 delivery time and increase competition.

                                 The January 28, 1994 report to the Acting Regional Administrator
                                 recommended that the Real Estate Division:

                                 .. Work with lessors to foster competition and provide more assistance
                                    to lessors seeking to make offers.

                                 .. Continue using fast track leasing procedures while minimizing the
                                    time and paperwork devoted to these leases.

                                 The Acting Regional Administrator generally agreed with the
                                 recommendations in the report. The audit is still in the resolution
                                 process.

                                 Fraudulently Obtained Retirements
                                 In response to a GSA employee complaint, the OIG and the U.S. Office
                                 of Special Counsel conducted an investigation of improper personnel
                                 actions by a GSA regional personnel officer and other senior regional
                                 officials. At the conclusion of the investigation, the personnel officer
                                 was discharged from employment for scheming to falsify documents to
                                 obtain employee discontinued service retirements. Another senior
                                 official retired from Government service prior to disciplinary action
                                 being taken, and a regional official was offiCially reprimanded.

                                 Subsequent to the termination of the personnel officer, a retired GSA
                                 employee agreed to reimburse the Government $34,608 as restitution
                                 for his improperly obtained retirement. This retirement was
                                 fraudulently granted as part of the scheme by the regional officials. The
                                 investigation also identified three other retired GSA employees in which
                                 court action is presently underway to obtain restitution to the
                                 Government for the fraudulently obtained retirements.




12 Semiannual Report To The Congress
                       Prevention Activities

                       In addition to detecting problems in GSA operations, the DIG is
                       responsibleJor initiating actions to preventJraud, waste, and abuse and
                       to promote economy and efficiency.

                       The ~iG's preaward audit program provides information to contracting
Significant Preaward   officers for use in negotiating contracts. The pre-decisional, advisory
Audits                 nature of preaward audits distinguishes them from other audits. This
                       program provides vital and current information to contracting officers,
                       enabling them to significantly improve the Government's negotiating
                       position. This period, the OIG performed preaward audits of
                       167 contracts with an estimated value of $1.1 billion. The audit reports
                       contained over $76 million in financial recommendations.

                       Multiple Award Schedule Contracts
                       This period, four of the more significant audits involving Multiple
                       Award Schedule contracts had estimated Governmentwide sales
                       totaling over $98 million. Based on our findings, the auditors
                       recommended that over $15 million in funds be put to better use.

                       The OIG evaluated discount schedule and marketing data submitted in
                       response to GSA's solicitations for communication recording systems
                       and accessories, automatic data processing equipment and software,
                       and lettering devices and supplies.

                       The auditors found common problems among the audits. Companies
                       were offering commercial customers better discounts than offered to
                       GSA. The companies either did not disclose the higher discounts or did
                       not provide adequate justification for not offering the higher discounts
                       to GSA.

                       Other Contracts
                       The OIG performed audits involving a claim for increased costs and a
                       lease escalation proposal. The two audits reviewed amounts of over
                       $5 million and recommended adjustments of more than $2 million .

                       • The OIG audited a claim for increased costs related to the renovation
                         of a Federal building. The contractor alleged that Government-
                         caused delays resulted in increased costs. The audit advised the
                         contracting officer that the accounting records for the original
                         contract work and change order work were not adequately
                         segregated, overhead expenses were overstated, and costs claimed
                         for productivity loss were not attributable to the Government.

                       • The OIG audited a lease escalation proposal. We advised the
                         contracting officer that the proposal was overstated because the
                         lessor included non-operating expense items in the operating cost
                         proposal. For example, capital expenditures to upgrade building
                         elevators were proposed as an operating expense. The lease excludes
                         these items from escalation.


                                                                   Office of Inspector General   13
                                 Prevention Activities


Federal Managers'                 The Federal Managers' Financial Integrity Act requires GSA
                                  management to provide assurance to the President and the Congress
Financial Integrity Act           that Agency resources are protected from fraud, waste,
                                  mismanagement, and misappropriation.
Reviews
                                  We advised management that three material control weaknesses
                                  should have been reported to the Administrator. One assurance
                                  statement did not disclose a material weakness concerning controls for
                                  documenting and substantiating rental rates charged to Federal
                                  agencies. For another office, the assurance statement was not complete
                                  in its reporting of material weaknesses concerning a violation of the
                                  Advance Payment Statute and oversight of a major GSA
                                  telecommunications contract. In addition, we believe the risk ratings
                                  for nine program components should either be raised or retained at
                                  their high risk designation, not reduced as management recommended.
                                  Nothing else came to our attention during the reviews for the OIG to
                                  conclude that reporting officials had other than reasonable and reliable
                                  bases for their assurance statements.

                                  Our findings were presented to the Agency's Management Control
                                  Oversight Council which adopted the OIG's concerns as GSA issues.
                                  The Administrator's December 30, 1993 Assurance Letter to the
                                  President included the three material weaknesses identified in our
                                  report.

                                   Integrity Awareness Briefings comprise the ~IG's primary vehicle for
Integrity Awareness                educating employees on their responsibilities for the prevention of
                                   fraud and abuse, and for reinforcing employees' roles in helping to
                                   ensure the integrity of Agency operations.

                                   This period, we presented 24 briefings which were attended by
                                   478 regional employees. These briefings explain the statutory mission
                                   of the OIG and the methods available for reporting suspected instances
                                   of wrongdoing. In addition, through case studies and slides, the
                                   briefings expose GSA employees to actual instances of fraud in GSA
                                   and other Federal agenCies.

                                   The OIG's program for reviewing leases prior to award provides
Advisory Lease                     front-end assurance that GSA is adhering to regulations and
Reviews                            procedures before awarding selected leases exceeding established
                                   thresholds. These reviews, although advisory in nature, promote
                                   opportunities for economy and efficiency in the leasing area, and the
                                   avoidance of problems before they occur.

                                   This period we received 22 lease proposals for review and completed
                                   4 audits. Two of the proposals reviewed had deficiencies. The Agency
                                   has identified the leasing program for evaluation as a nationwide
                                   reinvention project. We are cooperating with management in this
                                   endeavor as leasing practices are studied in several regional locations.



14   Semiannual Report To The Congress
                       Prevention Activities


Hotline                The Hotline is another part of our prevention program. It provides an
                       avenue for concerned employees to report suspected wrongdoing.
                       Hotline posters located in GSA-controlled buildings, as well as Hotline
                       brochures, encourage employees to use the Hotline.

                       During this reporting period, we received 128 Hotline calls and letters.
                       Of these, 97 complaints warranted further action. We also received
                       8 referrals from GAO and 29 referrals from other agencies; 19 of these
                       referrals required further action.

                       The OIG performs independent reviews of implementation actions, on a
Implementation         test basis, to ensure that management's corrective actions are being
Reviews                accomplished according to established milestones. This period, the OIG
                       performed 10 implementation reviews. In each of these cases,
                       management was successfully implementing the recommendations.

                       The Chief Financial Officers Act of 1990 requires the OIG to conduct or
Financial Statements   arrange for an annual audit of GSA's consolidated financial statements.
Audit                  The Act also requires a report on GSA's system of internal accounting
                       controls and on GSA's compliance with laws and regulations. With
                       oversight and guidance from the OIG, an independent public
                       accounting firm performed this audit for Fiscal Year 1993. In the
                       auditor's report, dated February 4, 1994, GSA received unqualified
                       opinions on its financial statement as well as on its system of internal
                       accounting controls. Several reportable conditions were identified
                       where steps should be taken to strengthen internal controls. None of
                       these was considered material. GSA is one of the few Federal agencies
                       to receive an unqualified opinion on its financial statements. The report
                       on GSA's compliance with laws and regulations cited only one instance
                       of noncompliance-a violation of the Advance Payment Statute.

                       In our continuing effort to implement the Chief Financial Officers Act,
Performance            the OIG completed limited reviews of the internal controls for two
Measures               program performance measures. The Office of Management and Budget
                       Circular 93-06, "Audit ReqUirements for Federal Financial Statements,"
                       requires an assessment of the reasonableness of the control structure
                       to generate reliable performance information. Our preliminary
                       assessment showed that the design and implementation of the existing
                       control structure could be improved. Consistent with the forthcoming
                       Office of Management and Budget audit gUidance, we plan to expand
                       our reviews to include detailed testing of the internal controls relating
                       to selected performance measures.

                       This period, the OIG conducted two evaluations to satisfY legislative
Legislative            requirements for Fiscal Year 1993 activities. In one review, the OIG
Requirements           evaluated GSA's compliance with Public Law 101-121, also known as
                       the Byrd Amendment Restriction on Lobbying Activities. The
                       Amendment requires that recipients of contracts, loans, or cooperative
                       agreements over certain dollar thresholds certifY that no Federal funds
                       were used for lobbying activities. Disclosure of lobbying activity costs


                                                                   Office of Inspector General   15
                               Prevention Activities

                                 paid from non-Federal funds is also required. Our review indicated that
                                 GSA was in compliance with the Amendment's requirements.

                                 In the second review, the OIG evaluated GSA's controls to ensure that
                                 acquisition of advisory and assistance services complies with the
                                 provisions of Office of Management and Budget Circular A-120. Also, in
                                 accordance with Public Law 97-258, the OIG reported on the accuracy
                                 of advisory and assistance contract data reported in the Federal
                                 Procurement Data System. We did not identifY any reportable
                                 conditions.




16 Semiannual Report To The Congress
Review of Legislation and Regulations

         Pursuant to the Inspector General Act of 1978, the OIG is required to
         review existing and proposed legislation and regulations to detennine
         their effect on the economy and efficiency of the Agency's programs and
         operations and on the prevention and detection offraud and abuse.

         During this period, the OIG reviewed 309 legislative matters and
         54 proposed regulations and directives. The OIG provided significant
         comments on the following legislative items:

         • S. 1587. The Federal Acquisition Streamlining Act of 1993. We
            strongly supported the goal of streamlining the Federal procurement
            process. However, we expressed concern that certain provisions of
            the bill and of the Office of Management and Budget mark-up would
            eliminate or weaken important safeguards against fraud and
            contractor overcharges. In particular, we strongly opposed the
            Gurtailment of Government audit rights, pointing out that recent
           ,audits conducted by this office alone have resulted in nearly one half
            billion dollars in recoveries and cost avoidances for one of the
            Agency's commercial product acquisition programs. We detailed our
            concerns regarding a number of prOvisions whiGh we believed would
            result in greater costs and less "business-like" practices including:
            provisions requiring the Government to presume contractors' prices
            were reasonable; provisions limiting the Government's ability to
            obtain contractor pricing information and otherwise weakening the
            Government's negotiating posture; and provisions altering the
            definition of commerciality. We identified proposed changes which we
            believed would cost hundreds of millions of dollars in needless
            additional product costs and lost recoveries. While we agreed with
            the need to streamline the procurement process, we urged that this
            be balanced with the need to protect the taxpayers' interests.

         • S. 1760. To Amend the Public Buildings Act of 1959 to Improve
              the Process of Constructing. Altering. Purchasing. and Acquiring
              Public Buildings. and for Other Purposes. We commented that
              there is already a significant amount of CongreSSional oversight of
           '. public buildings projects, and the additional reporting requirements
              called for in the bill would be unduly burdensome for GSA. We also
              noted the bill's proposal for an automatic 5 percent across-the-board
              reduction in the space allotted to agencies does not take into account
              the real needs of agencies to meet their various missions.

         4>   H.R. 1900. The Privacy for Consumers and Workers Act. We
              commented that the bill did not clearly state that its exemptions for
              law enforcement agencies also apply to Offices of Inspector General.
              We recommended that such offices be specifically exempted from
              some of the bill's requirements in the same manner and to the same
              extent as other law enforcement agencies.




                                                       Office of Inspector General   17
               Review of Legislation and Regulations

                                 • S. 1782, Electronic Freedom Of Information Act. The bill
                                   proposes to permit significant civil penalties against agencies that do
                                   not comply with mandated response time requirements. The OIG
                                   noted that such a proposal does not take into account the Freedom
                                   of Information Act workload of the responding offices, and the
                                   additional expenditures which would be needed if agencies were to
                                   meet these time requirements and still complete their missions.




18 Semiannual Report To The Congress
      Statistical Summary of OIG Accomplishments

                             Audit Reports Issued
                             The OIG issued 262 audit reports, including 1 audit performed by the
                             OIG that was issued to another agency and 15 audits performed for the
                             OIG by another agency. The 262 reports contained financial
                             recommendations totaling $147,233,249, including $137,642,212 in
                             recommendations that funds be put to better use and $9,591,037 in
                             questioned costs. Due to GSA's mission of negotiating contracts for
                             Govemmentwide supplies and services, most of the recommended
                             savings that funds be put to better use would be applicable to other
                             Federal agencies.

                             Management Decisions on Audit Reports
                             Table 1 summarizes the status of the universe of audits requiring
                             management decisions during this period, as well as the status of those
                             audits as of March 31, 1994. Five reports more than 6 months old were
                             awaiting management decisions as of March 31, 1994; all of them were
                             preaward audits which are not subject to the 6 month management
                             decision requirement. Table 1 does not include 1 report issued to
                             another agency this period and 25 reports excluded from the
                             management decision process because they pertain to ongoing
                             investigations.


               Table 1. Management Decisions on OIG Audits
                                                           Reports with                Total
                                                No. of       Financial               Financial
                                               Reports   Recommendations
                                                   .~-----   --
                                                              ..     ~~-~
                                                                                 Recommendations
                                                                                ...
                                                                                  -.------------




For which no management decision
had been made as of 10/1/93
    Less than 6 months old                      100                 76             $ 71,638,074
    More than 6 months old                         4                 4               17,388,728
Reports issued this period                      257                157              146,229,693
TOTAL                                           361                237             $235,256,495
For which a management decision
was made during the reporting
period
   Issued prior periods                          99                 76             $ 76,382,000
   Issued current period                        175                 95               38,385,282
TOTAL                                           274                171             $114,767,282
For which no management decision
had been made as of 3/31/94
    Less than 6 months old                       82                 62             $107,844,411
    More than 6 months old                       ~                 -.1               12.644,802
TOTAL                                            87                 66             $120,489,213



                                                                         Office of Inspector General   19
        Statistical Summary of OIG Accomplishments

                                 Management Decisions on Audit Reports With Financial
                                 Recommendations
                                 Tables 2 and 3 present the audits identified in Table 1 as containing
                                 financial recommendations by category (funds to be put to better use or
                                 questioned costs). One of the reports contained recommendations that
                                 funds be put to better use as well as quesioned costs, and this report is
                                 therefore included in both Tables 2 and 3.


              Table 2. Management Decisions on OIG Audits with
              Recommendations that Funds be Put To Better Use
                                                             No. of                 Financial
                                                            Reports             Recommendations

 For which no management decision had
 been made as of 10/1/93
    Less than 6 months old                                     65                  $ 67,959,094
    More than 6 months old                                      2                       271,377
 Reports issued this period                                   133                   136,638,656
 TOTAL                                                        200                  $203,869,127
 For which a management decision was
 made during the reporting period
     Recommendations agreed to by
     management based on proposed
     .. management action                                                          $ 79,882,746
     .. legislative action
     Recommendations not agreed to
     by management                                                                      4,869,589
 TOTAL                                                        145                  $ 84,752,335
 For which no management decision had
 been made as of 3/31/94
     Less than 6 months old                                     51                 $ 106,471,990
     More than 6 months old                                    .-1                    12,644,802
 TOTAL                                                         55                  $119.116,792




20 Semiannual Report To The Congress
        Statistical Summary of OIG Accomplishments


                      Table 3. Management Decisions on OIG
                          Audits with Questioned Costs
                                                    No. of            Questioned           Unsupported
                                                  Reports               Costs                 Costs
For which no management decision
had been made as of lO/1/93
    Less than 6 months old                           12           $    4,678,980                  $-
    More than 6 months old                            2               17,117,351
Reports issued this period                           24                9,591,037
TOTAL                                                38           $31,387,368                     $-
For which a management decision
was made during the reporting
period
    Disallowed costs                                              $ 29,976,932 *                  $-
    Costs not disallowed                                                 38,015
TOTAL                                                27           $30,014,947                     $-
For which no management decision
had been made as of 3/31/94
    Less than 6 months old                           11           $    1,372,421                  $-
    More than 6 months old                           ~                         o
TOTAL                                                11           $   1,372.421                   $-

* $106,813 ojthis amount was recovered in civil settlements,   as reported in Table 5.




                                 Investigative Workload
                                 The aIG opened 119 investigative cases and closed 126 cases. In
                                 addition, the aIG received and evaluated 77 complaints and allegations
                                 from sources other than the Hotline that involved GSA employees and
                                 programs. Based upon our analyses of these complaints and
                                 allegations, aIG investigations were not warranted.




                                                                                   Office of Inspector General 21
         Statistical Summary of OIG Accomplishments

                                   Referrals
                                  The OIG makes criminal referrals to the Department of Justice or other
                                  authorities for prosecutive consideration and civil referrals to the Civil
                                  Division of the Department of Justice or U.S. Attorneys for litigative
                                  consideration. The OIG also makes administrative referrals to GSA
                                  officials on certain cases disclosing wrongdoing on the part of GSA
                                  employees, contractors, or private individuals doing business with the
                                  Government.


                           Table 4. Summary of OIG Referrals
               Type of Referral                            Cases                      Subjects

                Criminal                                     29                           62
                Civil                                         9                           18
                Administrative                               50                          157
                TOTAL                                       88                          237


                                  In addition, the OIG made 1 referral to another Federal agency for
                                  further investigation or other action and 28 referrals to GSA officials for
                                  informational purposes only.

                                   Actions on DIG Referrals
                                   Based on these and prior referrals, 12 cases (19 subjects) were
                                   accepted for criminal prosecution and 5 cases (7 subjects) were
                                   accepted for civil litigation. Criminal cases originating from OIG
                                   referrals resulted in 10 indictments/informations and 16 successful
                                   prosecutions. OIG civil referrals resulted in 3 civil fraud complaints,
                                   and 4 case settlements (involving 5 subjects). Based on OIG
                                   administrative referrals, management debarred 56 contractors,
                                   suspended 23 contractors, and took 22 personnel actions against
                                   employees.




22   Semiannual Report To The Congress
       Statistical Summary of OIG Accomplishments

                                  Monetary Results
                                  Table 5 presents the amounts determined to be owed the Government
                                  as a result of criminal and civil actions. The amounts do not necessarily
                                  reflect actual monetary recoveries.

                                  In addition, the OIG identified for recovery $7,799,179 in money and/or
                                  property during the course of its investigations.



                        Table 5. Criminal and Civil Recoveries
                                                     Criminal                       Civil

         Fines and Penalties                       $ 1,019,175                  $
         Settlements or Judgments                                                   311,089*
         Restitutions                                   45,000
         TOTAL                                     $1,064,175                   $311,089
*This amount includes $106,813 reportable pursuant to section 5(a}(8) of the Inspector General Act as
management decisions to disallow costs. See Table 3.




                                                                              Office of Inspector General 23
Appendices
      Appendix / . . . Significant Audits From Prior Reports

Under the Agency's audit management decision process,         recommendation requires instituting a training program
GSA's Office of Administration, Office of Management          to assist Federal agencies in developing and maintaining
Controls and Evaluation, is responsible for tracking imple-   their occupant emergency plans. It is scheduled for com-
mentation of audit recommendations after a management         pletion by July 31, 1994.
decision has been reached. That office furnished the
following status information.                                 Local Telephone Service Program
Nine audits highlighted in prior Reports to the Congress      Period First Reported: April 1, 1993 to September 30,
have not yet been fully implemented; all are being imple-     1993
mented in accordance with currently established               The review disclosed the need to provide better service to
milestones.
                                                              Federal customers of the local telecommunications pro-
                                                              gram. The report included six recommendations; none
Procurement Personnel Development                             have been implemented.
Period First Reported: April 1, 1993 to September 30,
1993                                                          One of the recommendations involves using multi-year
                                                              rates to determine local telephone service and is
1bis review advised management to streamline and update       scheduled for completion by May 31, 1994. 1\vo recom-
its development programs for procurement personnel.
                                                              mendations involve comparing costs with telephone
The report contained one recommendation; it has not yet
                                                              services available from the private sector and identifYing
been implemented.
                                                              customers who should be provided service from another
1bis recommendation involves improving the warranting,        type of system. They are scheduled for completion by
training, and certification programs. These improvements      August 31, 1994. Three recommendations involve
are scheduled for completion by August 31, 1994.              improving payment processing, rate agreements, and
                                                              management of toll calls. They are scheduled for com-
                                                              pletion by October 31, 1994.
Occupant Emergency Plans
Period First Reported: April 1, 1993 to September 30,         7 to 10 Digits Dialing Conversion
1993
                                                              Period First Reported: April 1, 1993 to September 30,
The review identified the need to improve occupant emer-      1993
gency plans to ensure the safety of people in Federal
buildings. The report contained three recommendations;        This review advised management to determine if interest
one has been implemented.                                     charges may be assessed due to an advance payment for
                                                              services not yet provided. The report contained seven rec-
One of the remaining recommendations involves per-            ommendations.
forming annual reviews of occupant emergency plans for
multi-story buildings. By December 31, 1994, the OIG          Resolution was achieved on March 31, 1994 and the final
will conduct a reexamination to verifY that the annual        action plan is being implemented. All actions are sched-
reviews are being conducted. The other remaining              uled to be completed by September 30, 1994.




                                                                                        Office of Inspector General 27
       Appendix / . . . Significant Audits From Prior Reports

Vacant Space Management                                       contained two recommendations; one has been imple-
                                                              mented.
Period First Reported: October 1, 1992 to March 31,
1993                                                          The remaining recommendation required a determina-
1his review revealed that GSA needed to improve its man-      tion whether it would be cost benefiCial to recover health
agement of vacant space. The report contained five            benefit insurance contributions for prior years and to take
recommendations; four have been implemented.                  appropriate action based on that determination;aWhile
                                                              all pertinent actions have been taken on this recommen-
The remaining recommendation involves updating assign-        dation, it remains open until all recovery actions are
ment files and drawings with current data and correcting      completed.
reports. Space inspections for the purpose of updating
assignment files and drawings are scheduled to be com-
pleted by June 30, 1994. A follow-up review to ensure         Contract Workload Management
that assignment files and drawings have been updated          Period First Reported: April 1, 1992 to September 30,
is scheduled for completion by September 30, 1994.            1992
                                                              This review revealed the need to develop a strategy for
Special Order Program for Tools                               addressing procurement workload concerns. The report
Period First Reported: October 1, 1992 to March 31,           contained one recommendation; it has not yet been imple-
1993                                                          mented.
This review identified the need to improve the manage-
                                                              This recommendation involves establishing a working
ment of the special order program for tools. The report
                                                              group to develop a system for addressing identified issues
contained nine recommendations; seven have been imple-
                                                              and to give attention to the Multiple Award Schedule
mented.
                                                              program concerns. The action plan is being revised to
One of the remaining recommendations concerns                 incorporate changes for streamlining the procurement
analyzing special order program information needs and         system through the use of electronic commerce.
establishing controls to ensure the information is accurate
and useful. It is scheduled for completion by April 30,       Controls Over Receivables
1994. The other recommendation involves strengthening
controls over the processing of memoranda. All actions        Period First Reported: October 1, 1991 to March 31,
related to the implementation of the recommendation           1992
have been completed except for the follow-up review. This     This review identified needed improvements to the billing
review is scheduled to be completed by August 31, 1994.       procedures and financial computer programs for receiv-
                                                              ables. The report contained three recommendations; two
Employee Benefits Programs                                    have been implemented.
Period First Reported: October 1, 1992 to March 31,
                                                              The last recommendation requires the development of a
1993
                                                              computer program which allows updates to multiple bills
This review found that the processing of health benefit       automatically for the same customer. It is scheduled for
insurance transactions needed improvement. The report         completion by September 30, 1994.




28 Semiannual Report To The Congress
                    Appendix II . . . Audit Report Register
                                                                                                  Financial
                                                                                             Recommendations
                                                                                         -"-.----~"-~~ ..-~~--.-~".--"




                                                                                          Funds To        Questioned
Date of    Audit                                                                          Be Put To     (Unsupported)
Report     Number                                  Title                                  Better Use        Costs

           (Note: Due to the pre-decisional nature qfsome audits, theflnancial recc>m-
           mendations pertaining to these reports are not listed in this Appendix)


PBS        INTERNAL AUDITS
lO/14/93   A31518        Audit of the Purchasing Activities of the Central Field
                         Office, Region 5

lO/18/93   A32158        Audit of Estimating Procedures Used by the Region 7
                         Design and Construction Division

lO/18/93   A32468        Audit of Controls Over Funding for Prospectus Projects,
                         Region 9

lO/28/93   A30698        Review of the Rochester, New York Buildings Manage-
                         ment Field Office, Region 2

lO/28/93   A32458        Audit ofEstimatlng Practices, Design and Construction
                         Division, Region 9

11/05/93   A21575        Audit of the Cincinnati Buildings Management Field
                         Office, Region 5

11/08/93   A30939        Postaward Audit of Lease Number GS-03B-20130:
                         615 Chestnut Street, Philadelphia, PA

11/24/93   A30947        Audit of Energy Conservation, Repair and Alteration
                         Program, Region 3

12/02/93   A42455        Preaward Lease Review: 1132 Bishop Street, Honolulu,
                         Hawaii, Region 9, Lease Number GS-09B-92023

12/15/93   A30649        Audit of the Federal Protective Service Division
                         Operations, Region 2

12/17/93   A32488        Audit of the Federal Protective Service Division
                         Operations, Region 9

12/21/93   A31554        Audit of the Purchasing Activities of the Springfield Field
                         Office. Region 5

12/30/93   A30679        Review of the Long Island Buildings Management Field
                         Office, Region 2

12/30/93   A31526        Audit of Region 5's Design and Construction Division's
                         Estimating Practices


                                                                                           Office of Inspector General 29
                     Appendix //- Audit Report Register
                                                                                           Financial
                                                                                      Recommendations
                                                                                  -Funds To-~-Questioned-
Date of     Audit                                                                  Be Put To    (Unsupported)
Report      Number                             Title                               Better Use        Costs

01/20/94    A32489     Audit of Procurement Program, Alaska Field Office,
                       Region 10

01/24/94    A32547      Postaward Lease Review: 901 Market Street, San
                        Francisco, California, Region 9

01/27/94    A42464      Pre award Lease Review: 2929 N. Central Avenue,
                        Phoenix, Arizona, Region 9, Lease Number GS-09B-
                        92539

01/28/94    A21552     Audit of the Lease Acquisition Process, Region 5

02/03/94    A31568     Audit of the Postaward Lease Administration: U.S. Fish
                       and Wildlife Service 1924lndustrial Parkway, Marquette,
                       Michigan, Lease Number GS-05B-15179, Region 5

02/28/94    A41211     Audit of Pre award Lease Actions, IRS BUilding,
                       Birmingham, Alabama, Lease Number GS-04B-34007

03/10/94    A32481     Audit of Certified Invoice Procedures, Region 9

03/11/94    A43030     Preaward Lease Review: 1919 M Street NW, Washing-
                       ton, DC, Lease Number GS-llB-80412

03/25/94   A31550      Audit of Region 5, Federal Protective Service Division       $20,000
                       Operations

03/25/94   A32548      Postaward Lease Review: Park Place Building, Seattle,                        $60,532
                       Washington, Lease Number GS-lOB-05803

PBS         CONTRACT AUDITS
10/02/93   A31867      Preaward Audit of Architect and Engineering Services
                       Contract: The Clark Eversen Partners, Inc., Solicitation
                       Number GS06P93GYD0042

10/05/93   A31868      Preaward Audit of Architect and Engineering Services
                       Contract: M.E. Group, Inc., Solicitation Number
                       GS06P93GYD0042

10/05/93   A32543      Preaward Audit of Architect and Engineering Services
                       Contract: Keating Mann Jernigan Rottet, Solicitation
                       Number GS-09P-93-KTC-00 14




30 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                          Financial
                                                                                     Recommendations
                                                                                                    -:--------=-
                                                                                  Funds To      Questioned
Date of    Audit                                                                  Be Put To    (Unsupported)
Report     Number                             Title                               Better Use        Costs

10/06/93   A30687     Preaward Audit of a Claim for Increased Costs: Active
                      Fire Sprinkler Corporation, Contract Number GS-02P-
                      86CUC0096

10/08/93   A30693     Review of Foley Square, Draw Request Procedures:
                      Linpro New York Realty, Inc., Contract Number GS-02P-
                      91CUC0058

10/19/93   A30688     Review of Pretrial Stipulation on Accounting for
                      Subcontractor Pass-thru Premium Time Costs: Worth
                      Construction Co., Inc., Bunker Metal Fabricators, Inc.,
                      Subcontractors to Terminal Construction Corporation,
                      Contract Number GS-02P-23256

10/19/93   A30691     Review of Pretrial Stipulation on Accounting for
                      Subcontractor's Pass-thru Costs: Otis Elevator
                      Company, Subcontractor to Terminal Construction
                      Corporation, Contract Number GS-02P-23256

10/19/93   A32186     Limited Preaward Review of Forward Pricing Proposal
                      for Corporate Overhead Rate: Fire Security Systems, Inc.,
                      Contract Number GS-07P-92-HUC-0022

10/21/93   A33055     Report on Audit of Subcontractor Proposal for Change
                      Order to: Grunley Construction Company, Inc., Under
                      Contract No. GSllP90MKCOI99, PLK, Inc., (Formerly
                      JWP Cornell-AEC), Brentwood, Maryland

10/22/93   A32193     Review of Termination Proposal: Fibertection Corpora-
                      tion, Contract Number GS-07P-91-HUC-0051

10/26/93   A30952     Audit of Claim for Increased Costs: Ranco Construction,
                      Inc., Contract Number GS-02P-88-CUC-0050

10/27/93   A30700     Preaward Audit of Architect and Engineering Services
                      Contract: Jan Hird Pokorny Architects and Planners,
                      Solicitation Number GS02P93CUC0033(N)

10/27/93   A31574     Preaward Audit of Architect and Engineering Services
                      Contract: Leonard Parker Associates, Architects, Inc.,
                      Contract Number GS05P91GBC0039, Modification
                      Number 3

10/28/93   A31873     Preaward Audit of Architect and Engineering Services
                      Contract: Engineering Design & Management, Inc.,
                      Solicitation Number GS06P93GYD0043



                                                                                   Office ofInspector General 31
                    Appendix //- Audit Report Register
                                                                                         Financial
                                                                                    Recommendations
                                                                                 ~--.~~---~~--.-~~~----   -----"-~.   ~-




                                                                                 Funds To      Questioned
Date of    Audit                                                                 Be Put To    (Unsupported)
Report     Number                             Title                              Better Use        Costs

10/28/93   A33058      Preaward Audit of Architect and Engineering Services
                       Contract: Charles Ford & Associates, Solicitation
                       Number GS11P93EGD0018

10/29/93   A30699      Preaward Audit of Architect and Engineering Services
                       Contract: Perkins Eastman and Partners, Solicitation
                       Number GS02P93CUC0033(N)

10/29/93   A31575      Preaward Audit of Architect and Engineering Services
                       Contract: Sverdrup Corporation, Consultant to Leonard
                       Parker Associates, Solicitation Number GS05P91-
                       GBC0039, Modification Number 3

10/29/93   A33059      Report on Application of Agreed-Upon Procedures for
                       Review of Pricing Proposal Under Solicitation No.
                       GS11P93EGD0016: Engineering Design Group, Inc.,
                       Washington, DC

11/02/93   A31872      Preaward Audit of Architect and Engineering Services
                       Contract: Trivers Associates, Inc., Solicitation Number
                       GS06P93GYD0043

11/03/93   A42416      Pre award Audit of Change Order Proposal: Koll
                       Construction Company, Inc., Solicitation Number
                       GS-09P-92-KTC-0019

11/04/93   A31573      Preaward Audit of Lease Escalation Proposal: Balcor
                       Property Management, Inc., Lease Number GS-04B-
                       15730

11/08/93   A31249      Preaward Audit of Architect and Engineering Services
                       Contract: Barber and McMurry, Incorporated, Contract
                       Number GS-04P-91-EXC-0027

11/08/93   A31253      Preaward Audit of Architect and Engineering Services
                       Contract: J. N. Pease Associates, Solicitation Number
                       GS-04P-93-EXC-OO 12

11/09/93   A31247      Audit of Initial Invoice: MManTec, Incorporated,
                       Contract Number GS-04P-91-EWC-0055

11/09/93   A31870      Audit of New Termination Proposal: Leo A. Daly
                       Company, Contract Number GS06P89GYC0209(N)




32 Semiannual Report To The Congress
                    Appendix 11- Audit Report Register
                                                                                       Financial
                                                                                  R.ecommendations
                                                                               Funds To      Questioned
Date of    Audit                                                               Be Put To    (Unsupported)
R.eport    Number                            Title                             Better Use        Costs

11/09/93   A33464     Preaward Audit of Architect and EngineeIing Services
                      Contract: Vertrans Design Associates, Solicitation
                      Number GS05P93GBDOOO 1-ZIL92270

11/12/93   A30706     Preaward Audit of Architect and EngineeIing Services
                      Contract: Haines Lundberg Waehler, Contract Number
                      GS-02P-93-CUC0040(N)

11/16/93   A32198     Preaward Audit of Architect and EngineeIing Services
                      Contract: Harwood K. Smith, Inc., Contract Number
                      GS-07P-93-JUC-0008

11/17/93   A30701     Preaward Audit of Architect and EngineeIing Services
                      Contract: Cosentini Associates, Solicitation Number
                      GS02P93CUC0033(N)

11/17/93   A31252     Preaward Audit of Small Business Administration 8(a)
                      Pricing Proposal: JMG Contractors Funding Control,
                      Incorporated, Solicitation Number GS-04P-93-EWC-0033

11/17/93   A33057     Preaward Audit of Change Order Proposal: Ennis
                      Electric Company, Inc., a Subcontractor to Grunley
                      Construction Co., Inc., Contract Number GS-11P90-
                      MKC0199 IDC 68201

11/17/93   A41509     Preaward Audit of Architect and EngineeIing Services
                      Contract: Melvin Cohen and Associates, Inc., Solicita-
                      tion Number GS05P93GBCOO 17

11/23/93   A42415     Pre award Audit of Change Order Proposal: Scott
                      Company of California, Subcontractor to Koll
                      Construction Company, Inc., Contract Number GS-09P-
                      92-KTC-0019

11/29/93   A30707     Preaward Audit of Cost or Pricing Data: Regis
                      Contracting, Inc., Solicitation Number GS-02P-93-
                      CUC-0056

11/30/93   A30690     Preaward Audit of Cost or Pricing Data: BPI Properties
                      Foley Square, L. P., Contract Number GS-02P-91-
                      CUC-0057

12/06/93   A33053     Preaward Audit of Sole Source Contract: Jones Electric
                      Company, Inc., Solicitation Number GS-11P93MQCOO23
                      ~~Neg"




                                                                                Office of Inspector General 33
                    Appendix //- Audit Report Register
                                                                                             Financial
                                                                                      Recommendations
                                                                                   ---~-.. - ..-.
                                                                                           --~     -
                                                                                                 ~~-.-- ..- - - - -
                                                                                                          -~~




                                                                                   Funds To         Questioned
Date of    Audit                                                                   Be Put To      (Unsupported)
Report     Number                              Title                               Better Use          Costs

12/08/93   A32498      Preaward Audit of Change Order Proposal: Rosendin
                       Electric, Inc" Contract Number GS-09P-92-KTC-0019

12/15/93   A33051      Pre award Audit of Change Order Proposal: Grunley
                       Construction Company, Inc., Contract Number GS-11-
                       P90MKC0199

12/15/93   A41508      Preaward Audit of Lease Extension: 10 West Jackson,
                       Limited partnership, Lease Number GS-05B-14966

12/17/93   A43403      Preaward Audit of Sole Source Contract: Beautity
                       Professional Cleaning Services, Inc., Solicitation
                       Number GS-IIP93MJC0054

12/20/93   A40907      Preaward Audit of Architect and Engineering Services
                       Contract: Marshall Craft Associates, Incorporated,
                       Project Number IMD94518

12/20/93   A43433      Audit of Costs Claimed on General Services Adminis-
                       tration Grants PF-90-018 and GS-00P-91-BQ-G-020:
                       University of Texas at El Paso

12/22/93   A42452      Audit of Claim for Increased Costs: Will Bendix Electric,
                       Inc., Subcontractor to North American Construction
                       Corporation, Contract Number GS-09P-90-KTC-0 123

12/27/93   A20691      Pre award Audit of Cost or Pricing Data, Liability
                       Insurance Costs: The Port Authority of New York and
                       New Jersey, Lease Number GS-02B-15370

01/20/94   A40908      Preaward Audit of Architect and Engineering Services
                       Contract: KCI Technologies, Inc., Project Number
                       IMD94518

01/21/94   A32194      Audit of Claim for Equitable Adjustment: Hill
                       Constructors, Inc., Contract Number GS-07P-
                       89-HUC-0074

01/28/94   A40615      Audit of Claim for Additional Costs: Laquila
                       Construction, Inc., Second TIer Subcontractor to Linpro
                       NY Realty, Inc., Contract Number GS02P91 CUC0058

01/31/94   A40613      Preaward Audit of Architect and Engineering Services
                       Contract: J. Martin Associates, Solicitation Number
                       GS-05P-93-GBC-OO 18(N)




34 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                          Financial
                                                                                     Recommendations
                                                                                 -----------~----------.--.----------




                                                                                  Funds To      Questioned
Date of    Audit                                                                  Be Put To    (Unsupported)
Report     Number                             Title                               Better Use        Costs

01/31/94   A43422     Preaward Audit of Architect and Engineering Services
                      Contract: Klinker and Associates, Inc., Solicitation
                      Number GS11P93EGD0020

02/01/94   A41814     Preaward Audit of Small Business Administration 8(A)
                      Pricing Proposal: Gill Construction, Inc., Solicitation
                      Number GS06P93GYC0087

02/03/94   A41212     Preaward Audit of Architect and Engineering Services
                      Contract: Lerch, Bates & Associates, Inc., Solicitations
                      Number GS-04P-93- EXO-0016; 0017; 0018; 0019; 0046

02/07/94   A43421     Audit of Cost Reimbursable Contract: Radan Systems,
                      Inc., Contract Number GS-00P-88-BQD-0021

02/09/94   A43423     Preaward Audit of Sole Source Contract: NAPA
                      Development Corporation, Solicitation Number GS-11-
                      P93MQC0033 "NEG" 8(A)

02/17/94   A40903     Preaward Audit of Architect and Engineering Services
                      Proposal: Glave/Spillis Joint Venture, Solicitation
                      Number GS-03P-93-DXC-0026

02/17/94   A42510     Pre award Audit of Cost or Pricing Data: Statewide
                      Private Patrol & Guard Services, Solicitation Number
                      GS-09P-93-KSD-011O

02/17/94   A43436     Preaward Audit of Architect and Engineering Services
                      Contract: Vincent Chan & AssOCiates, Inc., Solicitation
                      Number GS11P93EGD0019

02/17/94   A43437     Preaward Audit of Architect and Engineering Services
                      Contract: PKP Engineers, P.C., Subcontractor for
                      Vincent Chan and Associates, Inc., Solicitation Number
                      GS11P93EDG0019

02/23/94   A40610     Preaward Audit of Cost or Pricing Data: BPT Properties
                      Foley Square, L. P., Contract Number GS-02P-91-
                      CUC-0057

02/28/94   A40603     Preaward Audit of Cost or Pricing Data, Review of Over-
                      head Cost Elements: Linpro New York Realty, Inc.,
                      Contract Number GS02P91CUC0058

02/28/94   A40620     Audit of Termination Settlement Proposal: Waters
                      Craftsmen, Inc., Contract Number GS-02P-93-CUC-0009



                                                                                    Office of Inspector General 35
                    Appendix //- Audit Report Register
                                                                                          Financial
                                                                                     Recommendations~--




                                                                                  Funds To      Questioned
Date of    Audit                                                                  Be Put To    (Unsupported)
Report     Number                              Title                              Better Use        Costs

03/08/94   A40918      Preaward Audit of Construction Cost Estimating
                       Services Contract, Joint Venture of: Promatech, Inc.,
                       with International Consultants, Inc., Solicitation
                       Number GS-03P-93-DXD-0033

03/10/94   A43434      Preaward Audit of Change Order Proposal: William V.
                       Walsh Construction Company, Inc., Contract Number
                       GS-11P92-MKC-0058"Neg"

03/15/94   A41219      Preaward Audit of Small Business Administration 8(a)
                       Pricing Proposal: CDA, Incorporated, Solicitation
                       Number GS-04P-93-EWC-0386

03/15/94   A43443      Preaward Audit of Architect and Engineering Services
                       Contract: Law Engineering, Inc., Solicitation Number
                       GS11P93EGD0021

03/17/94   A40616      Preaward Audit of Cost or Pricing Data: Hall's Security
                       Analysts, Inc., Contract Number GS01P93-BWD0118

03/24/94   A43440      Preaward Audit of Architect and Engineering Services
                       Contract: Ross Murphy Finkelstein, Inc., Solicitation
                       Number GS11P93EGDOO21

03/25/94   A43435      Pre award Audit of Sole Source Contract: Heritage
                       Services, Inc., Contract Number GS-11P93MJC00728(a)

03/30/94   A40619      Review of Pretrial Stipulation on Accounting Relating to
                       Field Office Overhead Costs for Litigation Purposes:
                       Terminal Construction Corporation, Contract Number
                       GS-02P-23256

03/30/94   A40926      Preaward Audit of Construction Cost Estimating
                       Services: International Consultants, Inc., Joint Venture
                       with Promatech, Inc., Solicitation Number GS-03P-
                       93-DXD-0033

03/30/94   A41213      Preaward Audit of Small Business Administration 8(a)
                       Pricing Proposal: Randolph and Company, Incor-
                       porated, Solicitation Number GS-04P-93-EXC-0045

03/30/94   A41214      Preaward Audit of Small Business Administration 8(a)
                       Pricing Proposal: Middlebrooks Construction Company,
                       Subcontractor to Randolph and Company, Inc., Solici-
                       tation Number GS-04P-93-EXC-0045




36 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                         Financial
                                                                                    Recommendations
                                                                                 Funds To      Questioned
Date of    Audit                                                                 Be Put To    (Unsupported)
Report     Number                             Title                              Better Use        Costs

03/30/94   A42511     Audit of Claim for Increased Costs: Latch-On Insulation,
                      Inc., Subcontractor to North American Construction
                      Corporation, Contract Number GS-09P-90-KfC-0123

FSS        INTERNAL AUDITS
11/02/93   A32480     Audit of Operation of the Santa Barbara Area Travel
                      Management Center, Contract Number GS-09F-80373

11/08/93   A31856     Audit of Federal Supply Service's Response to the Audit
                      of the Standardization and Control of Industrial-
                      Quality Tools Program

12/08/93   A30919     Audit of FSS Inventory Controls and Procedures,
                      Northeast Distribution Center, Burlington, NJ, Region 3

12/10/93   A23348     Audit of US Travel Systems, Inc., Travel Management
                      Center

12/21/93   A32482     Audit of Inventory Controls and Procedures, Western
                      Distribution Center, Region 9

12/29/93   A21253     Audit of Federal Supply Service's Inventory Management $60,800,000
                      Practices

01/26/94   A30334     Audit of Waltham, Massachusetts, and Hartford,
                      Connecticut, Fleet Management Center Operations

01/26/94   A40909     Limited Scope Audit of the FSS Long Supply Excess
                      Process

03/14/94   A33436     Audit of Method of Awarding Travel Management
                      Center Contracts

FSS        CONTRACT AUDITS
10/06/93   A30348     Preaward Audit of Multiple Award Schedule Contract:
                      Dictaphone Corporation, Solicitation Number
                      FCGE-93-C6-0 128-N

10/07/93   A21565     Postaward Audit of Multiple Award Schedule Contract:                       $110,087
                      3M Company, Contract Number GS-OOF-06328 for the
                      Period November 8, 1988 through September 30, 1990

10/08/93   A31861     Preaward Audit of Multiple Award Schedule Contract:                         $70,315
                      Kroy, Inc., Solicitation Number FCGE-93-C6-0 128-N


                                                                                 Office of Inspector General 37
                      Appendix // . . . Audit Report Register
                                                                                       Financial
                                                                                  Recommendations
                                                                               Funds To      Questioned
Date of      Audit                                                             Be Put To    (Unsupported)
Report       Number                           Title                            Better Use        Costs

10/12/93     A30350     Limited Scope Postaward Audit of Government Billings
                        Under Contract Number GS-00F-441OA: Wang
                        Laboratories, Inc.

10/13/93     A31860     Preaward Audit of Multiple Award Schedule Contract:
                        Varitronic Systems, Inc., Solicitation Number FCGE-
                        93-C6-0 128-N

10/20/93     A30351     Preaward Audit of Multiple Award Schedule Contract:
                        Organizational Dynamics Incorporated, Solicitation
                        Number OPM-RFP-91-02503

10/20/93     A30702     Preaward Audit of Multiple Award Schedule Contract:
                        Ohaus Corporation, Solicitation Number FCGS-
                        X2-93-0037 -B

10/21/93     A42422     Preaward Audit of Cost or Pricing Data: Management
                        Analysis Company, Solicitation Number OPM-91-
                        RFP-02503

10/25/93     A30349     Preaward Audit of Cost or Pricing Data: Design
                        Contempo Inc., Solicitation Number 3FNH -93-0303-B

10 /25 /93   A30704     Preaward Audit of Multiple Award Schedule Contract:
                        Dantec Measurement Technology, Incorporated, Solici-
                        tation Number FCGS-Z2-93-0036-B-N

11/02/93     A30709     Preaward Audit of Multiple Award Schedule Contract:
                        Gilian Instrument, Corporation, Solicitation Number
                        FCGS-Z2-93-0036-B-N

11/03/93     A30353     Preaward Audit of Cost or Pricing Data: Turner &
                        Seymour Manufacturing Company, Solicitation
                        Number 7FXG-I3-93-7339-N

11/05/93     A31569     Preaward Audit of Multiple Award Schedule Contract:
                        Haworth, Inc., Solicitation Number FCXA-IC-93IFS-B

11/05/93     A31578     Preaward Audit of Multiple Award Schedule Contract:
                        TSI Inc., Solicitation Number FCGS-Z2-93-0036-B

11/09/93     A42424     Audit of Multiple Award Schedule Contract, Contract
                        Number GS-OOF-7407A: Ashtech, Inc.




38 Semiannual Report To The Congress
                    Appendix //- Audit Report
                                                                                            Financial
                                                                                       Recommendations
                                                                                            --
                                                                                 -----------._.------ -   - -------
                                                                                                              ~----~---~--~-----.




                                                                                    Funds To      Questioned
Date of    Audit                                                                    Be Put To    (Unsupported)
Report     Number                             Title                                 Better Use        Costs

11/10/93   A20335     Postaward Audit of Multiple Award Schedule Contract:                                              $106,813
                      U.S. Technology Corporation, Contract Number
                      GS-07F-17736

11/16/93   A42429     Audit of Multiple Award Schedule Contract: Giga-tronics,
                      Inc., Contract Number GS-OOF-0771A

11/24/93   A42421     Preaward Audit of Multiple Award Schedule Contract:
                      Abekas Video Systems, Inc., Solicitation Number
                      GS-03F-93-AYC-0036

11/29/93   A30705     Preaward Audit of Multiple Award Schedule Contract:
                      Energy Efficiency Systems, Inc., Solicitation Number
                      FCGS-Z2-93-0036-B-N

11/30/93   A41203     Preaward Audit of Multiple Award Schedule Contract:
                      Ampro Corporation, Solicitation Number GS-03F-
                      93-AYC-0036

11/30/93   A42457     Limited Audit of Government Billings: Danner Shoe                                                   $14,380
                      Manufacturing Company, Contract Number GS-07F-
                      4083A

12/07/93   A40608     Preaward Audit of Multiple Award Schedule Contract:
                      Wheatstone Corporation, Solicitation Number GS-03F-
                      93-AYC-0036

12/09/93   A41506     Preaward Audit of Multiple Award Schedule Contract:
                      3M Company, Occupational Health and Environmental
                      Safety Division, Solicitation Number TFTC-93-IF-7905B

12/10/93   A30941     Preaward Audit of Multiple Award Schedule Contract:
                      Exide Electronics Corporation, Solicitation Number
                      7FXI -R7 -92-61 09-1

12/13/93   A43413     Preaward Audit of Multiple Award Schedule Contract:
                      Wallac, lnc., Solicitation Number FCGS-Z8-93-0038-B-N

12/15/93   A40314     Preaward Audit of Multiple Award Schedule Contract:
                      Packard Instrument Company, Solicitation Number
                      FCGS-ZS-93-0038-B-N

12/15/93   A41511     Preaward Audit of Multiple Award Schedule Contract:
                      Globe Firefighters Suits, Solicitation Number 7FXG-
                      E4-93-8409-B




                                                                                      Office of Inspector General 39
                    Appendix //- Audit Report Register
                                                                                        Financial
                                                                                   Recommendations
                                                                                Funds To      Questioned
Date of    Audit                                                                Be Put To    (Unsupported)
Report     Number                             Title                             Better Use        Costs

12/15/93   A41518      Preaward Audit of Multiple Award Schedule Contract:
                       Adjustable Fixture Co., Solicitation Number 3FNH-
                       93-A232-N

12/20/93   A40902      Preaward Audit of Multiple Award Schedule Contract:
                       New Pig Corporation, Solicitation Number TFrC-
                       93-LF-7905B

12/21/93   A41510      Preaward Audit of Multiple Award Schedule Contract:
                       A. Daigger & Co., Solicitation Number FCGS-X2-
                       93-0037-B

12/21/93   A41513      Preaward Audit of Multiple Award Schedule Contract:
                       SLM Instruments, Inc., Solicitation Number FCGS-Z8-93-
                       0038-B-N

12/22/93   A40604      Preaward Audit of Multiple Award Schedule Contract:
                       Lehigh Safety Shoe Company, Solicitation Number
                       7FXG-E4-93-8409-B

12/22/93   A43419      Preaward Audit of Multiple Award Schedule Contract:
                       Carolina Shoe Company, Solicitation Number 7FXG-
                       E4-93-8409-B

12/23/93   A21579      Postaward Audit of Multiple Award Schedule Contract:
                       Brandt, Inc., Contract Number GS-00F-Ol661 for the
                       Period July 1, 1988 through June 30, 1989 and
                       Contract Number GS-00F-06570 for the Period July 1,
                       1989 through April 30, 1992

12/23/93   A42427      Preaward Audit of Multiple Award Schedule Contract:
                       Javelin Electronics, Solicitation Number GS-03F-
                       93-AYC-0036

12/30/93   A42428      Preaward Audit of Multiple Award Schedule Contract:
                       Mustang Engineered Technical Apparel, Solicitation
                       Number 7GXG-E4-93-8409-B

12/30/93   A42430      Preaward Audit of Multiple Award Schedule Contract:
                       Beckman Instruments, Inc., Solicitation Number
                       FCGS-Z8-93-0038-B-N

12/30/93   A42431      Preaward Audit of Multiple Award Schedule Contract:
                       Grass Valley Group, Inc., Solicitation Number GS-03F-
                       93-AYC-0036




40 Semiannual Report To The Congress
               Appendix //-- Audit Report Register
                                                                                           Financial
                                                                                    Recommendations
                                                                                -~--.--"..---
                                                                                 Funds To        Questioned
Date of    Audit                                                                 Be Put To      (Unsupported)
Report     Number                           Title                                Better Use          Costs

12/30/93   A42454   Audit of Multiple Award Schedule Contract: Grass
                    Valley Group, Inc., Contract Number GS-03F-2040A

01/03/94   A40312   Preaward Audit of Multiple Award Schedule Contract:
                    The Foxboro Company, Environmental Monitoring
                    Operations, Solicitation Number FCGS-Z2-93-0036

01/04/94   A42456   Pre award Audit of Cost or Pricing Data: Air, Inc.,
                    Solicitation Number 6FEP-CO-BT-910066B-N-6-17-92

01/06/94   A42468   Limited Audit of Government Billings: Abekas Video                              $12,432
                    Systems, Inc., Contract Number GS03F2022A

01/06/94   A43418   Report on Audit of Proposal for Initial Pricing Under RFP
                    No. OPM-RFP-91-02503: Coopers & Lybrand

01/07/94   A42426   Preaward Audit of Multiple Award Schedule Contract:
                    Odetics Broadcast, Solicitation Number GS-03F-
                    93-AYC-0036

01/11/94   A42458   Preaward Audit of Multiple Award Schedule Contract:
                    Windsor Industries, Inc., Solicitation Number 7FXG-
                    Z3-93-7927-B

01/11/94   A43411   Preaward Audit of Multiple Award Schedule Contract:
                    Shimadzu Scientific Instruments, Inc., Solicitation
                    Number FCGS-Z8-93-0038-B-N

01/13/94   A41512   Preaward Audit of Multiple Award Schedule Contract:
                    Petro Vend, Inc., Solidtation Number 7FXI-P5-93-4904-B

01/21/94   A40605   Preaward Audit of Multiple Award Schedule Contract:
                    Sony Electronics, Incorporated, Solicitation Number
                    GS-03F-AYC-0036

01/21/94   A42423   Preaward Audit of Multiple Award Schedule Contract:
                    Bend-Pak, Inc.,Solicitation Number 7FXI-P5-93-4904-B

01/26/94   A41516   Preaward Audit of Multiple Award Schedule Contract:
                    Tennant Company, Solicitation Number 7FXG-Z3-93-
                    7927-B

01/27/94   A41514   Preaward Audit of Multiple Award Schedule Contract:
                    Advance Machine Company, Solicitation Number 7FXG-
                    Z3-93-7927-B




                                                                                  Office of Inspector General 41
                    Appendix 11- Audit Report Register
                                                                                         Financial
                                                                                    Recommendations
                                                                                     _..   ~--~--- .. -- -. - --- ..
                                                                                                     .,.---------- - -   ---~   _      ~-   -~--




                                                                                 Funds To      Questioned
Date of    Audit                                                                 Be Put To    (Unsupported)
Report     Number                             Title                              Better Use        Costs

01/27/94   A42432      Preaward Audit of Multiple Award Schedule Contract:
                       Danner Shoe Manufacturing Company, Solicitation
                       Number 7FXG-E4-93-8409-B

01/27/94   A43430      Preaward Audit of Multiple Award Schedule Contract:
                       Refrigerant Recovery Systems, Inc., Solicitation Number
                       7FXI -P5-93-4904-B

01/28/94   A40606      Preaward Audit of Multiple Award Schedule Contract:
                       Panasonic Broadcast & Television Systems Company,
                       Solicitation Number GS-03F-AYC-0036

02/01/94   A40303      Interim Period Postaward Audit of Multiple Award                                                              $2,531
                       Schedule Contracts: Moduform Incorporated, Contract
                       Numbers GS-OOF-5309A, GS-00F-5230A and GS-
                       00F-5231A

02/03/94   A40304      Price Adjustments on Multiple Award Schedule
                       Contract: Millipore Corporation, Contract Number GS-
                       00F-6165A for the Interim Period August 16, 1991
                       through September 30, 1993

02/07/94   A80421      Postaward Audit of Multiple Award Schedule Contract:                                          $1,004,295
                       Virco ManufactUring Corporation, Contract No. GS-
                       00F-68464

02/07/94   A80422      Postaward Audit of Multiple Award Schedule Contract:                                                         $60,609
                       Virco Manufacturing Corporation, Contract No. GS-
                       00F-76572

02/08/94   A40311      Preaward Audit of Multiple Award Schedule Contract:
                       Dictaphone Corporation, Solicitation Number GS-03F-
                       93-AYC-0036

02/09/94   A40319      Preaward Audit of Multiple Award Schedule Contract:
                       Leeman Labs, Inc., Solicitation Number FCGS-Z8-
                       93-0038-B-N

02/09/94   A41517      Preaward Audit of Multiple Award Schedule Contract:
                       Breuer /Tornado Corporation, Solicitation Number
                       7FXG-Z3-93-7927-B

02/10/94   A42484      Preaward Audit of Multiple Award Schedule Contract:
                       Trojan Metal Products, Solicitation Number 3FNO-93-
                       J301-N-12-7-93




42 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                       Financial
                                                                                  Recommendations
                                                                              --------"   -      ------
                                                                               Funds To      Questioned
Date of    Audit                                                               Be Put To    (Unsupported)
Report     Number                           Title                              Better Use        Costs

02/10/94   A43427     Preaward Audit of Multiple Award Schedule Contract:
                      Washington Professional Systems, Solicitation Number
                      GS-03F-93-AYC-0036

02/11/94   A41811     Postaward Audit of Multiple Award Schedule Contract:                       $10,564
                      RD Instruments, Contract Number GSOOF06751 for the
                      Period December 1, 1989 through November 30, 1991

02/15/94   A40617     Preaward Audit of Multiple Award Schedule Contract:
                      Milton Roy Company, Solicitation Number FCGS-Z8-
                      93-0038-B-N

02/17/94   A40305     Price Adjustments on Multiple Award Schedule
                      Contract: Baker School Specialty Co., Inc., Contract
                      Number GS-OOF-6252A for the Interim Period
                      October 1, 1991 through December 31, 1993

02/17/94   A40323     Postaward Audit of Multiple Award Schedule Contract:                       $36,614
                      Baker School Specialty Co., Inc., Contract Number
                      GS-OOF-6252A for the Interim Period October 1, 1991
                      through December 31, 1993

02/17/94   A40611     Preaward Audit of Multiple Award Schedule Contract:
                      Spex Industries, Incorporated, Solicitation Number
                      FCGS-ZS-93-0038-B-N

02/17/94   A41209     Preaward Audit of Multiple Award Schedule Contract:
                      Barco, Incorporated, Solicitation Number GS-03F-
                      93-AYC-0036

02/17/94   A41217     Limited Audit of Government Billings: Barco, Incorpo-                      $95,778
                      rated, Contract Number GS-03F-1 055A

02/17/94   A42453     Preaward Audit of Multiple Award Schedule Contract:
                      The Perkin-Elmer Corporation, Solicitation Number
                      FCGS-ZS-93-0038-B-N

02/18/94   A41207     Preaward Audit of Multiple Award Schedule Contract:
                      Trak Engineering, Incorporated, Solicitation Number
                      7FXI -P5-93-4904-B

02/18/94   A41218     Limited Audit of Government Billings: Trak Engineer-                        $25,290
                      ing, Incorporated, Contract Number GS-07F-3112A

02/22/94   A43439     Preaward Audit of Multiple Award Schedule Contract:
                      Data Visible Corporation, Solicitation Number FCGE-
                      93-C1-0134-N


                                                                                Office of Inspector General 43
                    Appendix 11- Audit Report Register
                                                                                          Financial
                                                                                     Recommendations
                                                                                                .-~~.---"~-.--




                                                                                  Funds To      Questioned
Date of    Audit                                                                  Be Put To    (Unsupported)
Report     Number                              Title                              Better Use        Costs

02/24/94   A41524      Preaward Audit of Multiple Award Schedule Contract:
                       White Consolidated Industries, Richards-Wilcox
                       Division, Solicitation Number FCGE-93-0134-N

02/25/94   A42483      Preaward Audit of Multiple Award Schedule Contract:
                       Russ Bassett Company, Solicitation Number FCGE-
                       93-0 134-N

02/28/94   A30940      Preaward Audit of Multiple Award Schedule Contract:
                       Exide Electronics Corporation, Subcontractor to
                       Universal Power Systems, Inc., Solicitation Number 7FXI-
                       R7 -92-6109-1

03/02/94   A41525      Preaward Audit of Multiple Award Schedule Contract:
                       Kardex Systems, Inc., Solicitation Number FCGE-93-
                       0134-N

03/03/94   A41521      Limited Scope Audit of Government Billings: Advance                          $7,887
                       Machine Company, Contract Number GS-07F-4268A

03/03/94   A42435      Preaward Audit of Multiple Award Schedule Contract:
                       Vestec Corporation, Solicitation Number FCGS-Z8-
                       93-0038-B-N

03/04/94   A41526      Preaward Audit of Multiple Award Schedule Contract:
                       Alumacraft Boat Company, Solicitation Number 7FXI-
                       T5-93-190 1-B

03/08/94   A40320      Preaward Audit of Multiple Award Schedule Contract:
                       Thermo Jarrell Ash Corporation, Solicitation Number
                       FCGS-ZS-93-0038-B-N

03/08/94   A40327      Postaward Audit of Government Billings Under Contract                        $5,991
                       Number GS-OOF-2354A: Thermo Jarrell Ash
                       Corporation

03/09/94   A42522      Preaward Audit of Cost or Pricing Data: Ebsco Interiors,
                       Inc., Contract Number GS-00F-0024A

03/10/94   A40628      Preaward Audit of Multiple Award Schedule Contract:
                       Poster Originals, Limited, Solicitation Number 3FNH-
                       93-A333-N

03/14/94   A40317      Preaward Audit of Multiple Award Schedule Contract:
                       Canberra Industries, Inc., Solicitation Number FCGS-
                       ZS-93-0038-B-N



44 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                               Financial
                                                                                ..
                                                                                         Recommendations
                                                                                           ...
                                                                                     ~~-~.~.-   ~"   -""-"   "-~-~---"-.-~.-"-.   "--~~~"--~~---




                                                                                      Funds To       Questioned
Date of    Audit                                                                      Be Put To     (Unsupported)
Report     Number                            Title                                    Better Use         Costs

03/16/94   A42482     Preaward Audit of Multiple Award Schedule Contract:
                      Oberg International, Inc., Solicitation Number 7FXI-
                      P5-93-4904-B

03/17/94   A40915     Preaward Audit of Multiple Award Schedule Contract:
                      Burle Industries, Incorporated, Solicitation Number
                      GS-03F-93-AYC-0036

03/18/94   A40315     Preaward Audit of Multiple Award Schedule Contract:
                      Spectro Incorporated, Solicitation Number FCGS-
                      Z8-93-0038-B-N

03/18/94   A40919     Postaward Audit of Multiple Award Schedule Contract:
                      Teknion, Inc., Contract Number GS-00F-07285 for the
                      Period April 12, 1989 through September 30, 1991

03/18/94   A41532     Preaward Audit of Multiple Award Schedule Contract:
                      Stearns Manufacturing Company, Supplier to
                      Lifesaving Systems Corporation, Solicitation Number
                      7FXG-E4-93- 8409-B

03/22/94   A42535     Limited Scope Postaward Audit of Multiple Award
                      Schedule Contract: Geometrics, Inc., Contract Number
                      GS-00F-7449A

03/25/94   A41813     Postaward Audit of Multiple Award Schedule Contract:                                                         $44,685
                      Wieland Furniture Company, Contract Number GS-OOF-
                      07289 for the Period May 1, 1989 through April 30, 1991

03/30/94   A40917     Preaward Audit of Multiple Award Schedule Contract:
                      Douglass Industries, Incorporated, Solicitation Number
                      FCXAI-IC-93IFS-B

03/30/94   A41223     Preaward Audit of Multiple Award Schedule Contract:
                      Parker Marine Enterprises, Incorporated, Solicitation
                      Number 7FXI-T5-93-190 1-B

03/30/94   A41522     Preaward Audit of Proposed Price Increase: Hamilton
                      Sorter Company, Inc., Contract Number GS-OOF-8996A

03/30/94   A42434     Audit of Multiple Award Schedule Contract: Bianchi
                      International, Contract Number GS-07F-4 791A




                                                                                        Office of Inspector General 45
                    Appendix // . . . Audit Report Regis r
                                                                                         Financial
                                                                                    Recommendations
                                                                                 Funds To      Questioned
Date of    Audit                                                                 Be Put To    (Unsupported)
Report     Number                             Title                              Better Use        Costs


IRMS        INTERNAL AUDITS
11/23/93   A33710      Audit of the Federal Information Systems Support
                       Program, Capital Zone

12/01/93   A30945      Audit of Administration of Purchase ofTelecommunica-
                       tions Services (POTS) Contracts, Region 3

12/21/93   A33719      Audit of Everex Computer Pricing, Contract Number
                       GSOOK89AFD 1 700

03/25/94   A30930      Audit of Administration Over Government Telephone
                       Services, Information Resources Management Service,
                       EastemZone

03/25/94   A31546      Audit of ADP/ OA Equipment Inventory, IRMS Offices in
                       Chicago

IRMS        CONTRACT AUDITS
10/13/93   A30943      Preaward Audit of Multiple Award Schedule Contract:
                       Xerox Corporation, Solicitation Number GSC-KESO-
                       C-00049-N-4-20-93

10/15/93   A20331      Limited Scope Postaward Audit of Hardware and                           $2,764,384
                       Software Maintenance: Digital Equipment Corporation,
                       Multiple Award Schedule Contract Numbers:
                       GSOOK86AGS5669, GSOOK88AGS5918, GSOOK89-
                       AGS5608, GSOOK90AGS5726, and GSOOK91AGS5811

10/19/93   A32177      Preaward Audit of Multiple Award Schedule Contract:
                       Fischer International Systems Corporation, Solicitation
                       Number GSC-KESO-C-00049-N-4-20-93

10/20/93   A30703      Preaward Audit of Change Order Proposal: AT&T
                       Communications, Contract Number GS-00K-89AHD-
                       0008

10/28/93   A30942      Preaward Audit of Multiple Award Schedule Contract:
                       Xerox Corporation, Solicitation Number GSC-KESO-
                       C-00049-N -4-20-93

11/08/93   A30347      Audit of Cost and Pricing Data: Data Products New
                       England, Inc., Solicitation Number GS-KESF-B-C-00048




46 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                     Financial
                                                                                Recommendations
                                                                             Funds To      Questioned
Date of    Audit                                                             Be Put To    (Unsupported)
Report     Number                           Title                            Better Use        Costs

11/09/93   A32185     Preaward Audit of Multiple Award Schedule Contract:
                      Alcatel Network Systems, Inc., Solicitation Number
                      GSC-KES-00064-N-05-19-93

11/10/93   A31849     Audit of Proposed 1992 Overhead Rates: U.S. Sprint
                      Communications Company, Contract Number GS-OOK-
                      GSOOK89AHD0009

11/19/93   A23632     Postaward Audit of Multiple Award Schedule Contract:                  $1,755,294
                      IBM Corporation, Contract Number GSOOK86AGS5557
                      for the Period October 1, 1985 to September 30, 1986

11/23/93   A31248     Preaward Audit of Multiple Award Schedule Contract:
                      Knowledgeware, Incorporated, Solicitation Number
                      GSC-KESO-C-00049-N-4-20-93

11/23/93   A43424     Pre award Audit of Cost or Pricing Data: H. J. Ford
                      Associates, Inc., Solicitation No. GSC-KEGB-9316

12/06/93 . A43428     Pre award Audit of Cost or Pricing Data: H. J. Ford
                      Associates, Inc., Solicitation No. GSC-KEGB-9316

12/08/93   A30352     Limited Scope Postaward Audit of Hardware and                         $2,451,410
                      Software Purchases: Digital EqUipment Corporation,
                      Multiple Award Schedule Contract Numbers: GSOOK-
                      86AGS5669,GSOOK88AGS5918,GSOOK89AGS5608,
                      GSOOK90AGS5726, and GSOOK91AGS5811

12/14/93   A33739     Preaward Audit of Cost or Pricing Data: PRC, Inc.,
                      Solicitation No. GSC-KEGD-92-0008

12/16/93   A30953     Preaward Audit of Multiple Award Schedule Contract:
                      Xerox Corporation, Solicitation Number GSC-KES-
                      00064-N-05-19-93

12/16/93   A40302     Limited Scope Postaward Audit of Government Billings                     $24,487
                      Under Contract Number GSOOK93AGS5692: Computer-
                      vision Corporation

12/17/93   A30697     Preaward Audit of Multiple Award Schedule Contract:
                      AT&T Global BUSiness Communications, Systems
                      Business Unit, Solicitation Number GSC-KES-
                      00064-N-5-19-93

12/20/93   A43425     Pre award Audit of Cost or Pricing Data: Tri-Cor
                      Industries, Inc., Solicitation Number GSC-KEGB-9314



                                                                              Office of Inspector General 47
                    Appendix //- Audit Report Register
                                                                                           Financial
                                                                                      Recommendations
                                                                                   Funds To      Questioned
Date of    Audit                                                                   Be Put To    (Unsupported)
Report     Number                              Title                               Better Use        Costs


12/22/93   A40602      Preaward Audit of Cost or Pricing Data: AT&T Commu-
                       nications, Inc., Contract Number GSOOK89AHDOOO8

01/06/94   A33727      Preaward Audit of Multiple Award Schedule Contract:
                       IBM Corporation, Solicitation Number GSC-KESO-C-
                       00049-N-4-20-93

01/10/94   A43426      Report on Audit of Proposal for Initial Pricing Under RFP
                       No. WKC-93-MW-N-0001: Ogden Government Services
                       Corporation, Fairfax, Virginia

01/11/94   A43432      Report on Audit of Proposal for Initial Pricing Under RFP
                       No. WKC-93-MW-N-0001: American Management
                       Systems, Inc., Fairfax, Virginia

01/14/94   A00608      Postaward Audit of Multiple Award Schedule Contract:                        $120,753
                       Telenex Corporation, Contract Number GSOOK88-
                       AGS5046 Option Year One for the Period April 1, 1989
                       through April 30, 1990

01/14/94   A90478      Postaward Audit of Multiple Award Schedule Contract:                        $126,709
                       Telenex Corporation, Contract Number GSOOK88AGS-
                       5046 for the Period April 15, 1988 through March 31,
                       1989

01/25/94   A43420      Report on Application of Agreed Upon Procedures
                       Regarding Review of Proposal for Initial Pricing Under
                       RFP No. GSC-KEGB-9319: Calibre Systems, Inc., Falls
                       Church, Virginia

01/28/94   A31869      Audit of Proposed Labor Rates: U.S. Sprint Communi-
                       cations Company, Contract Number GSOOK89AHDOOO9

02/10/94   A43445      Pre award Audit of Cost or Pricing Data: American
                       Management Systems, Inc., Contract No. GSOOK-
                       92AFS2500

02/14/94   A43402      Preaward Audit of Cost or Pricing Data: FC Business
                       Systems, Solicitation Number GSC-KEGB-9304

03/02/94   A43431      Preaward Audit of Cost or Pricing Data: Mastech
                       Systems Corporation, Solicitation Number WKC-93-
                       MW-OOOI




48 Semiannual Report To The Congress
               Appendix II -- Audit Report R ister
                                                                                        Financial
                                                                                   Recommendations
                                                                                Funds To      Questioned
Date of    Audit                                                                Be Put To    (Unsupported)
Report     Number                           Title                               Better Use        Costs

03/21/94   A43448   Preaward Audit of Cost or Pricing Data: Telecommuni-
                    cation Systems, Inc., Request for Proposal Number
                    GSC-KEGB-9312

03/30/94   A40328   Postaward Audit of Multiple Award Schedule Contract:
                    Tylink Corporation, Contract Number GSOOK93-
                    AGS6454

FTS2000 INTERNAL AUDITS
10/19/93   A23608   Audit of Office of FTS2000 Sprint Oversight Center,
                    Management Information Systems

10/29/93   A22720   Audit of FIS2000 Payments to Contractors and Billings
                    to Customer Agencies

12/15/93   A33723   Audit of FIS2000 60/40 Business Allocation                   $33,062

OTHER INTERNAL AUDITS
10/15/93   A31819   Audit of Controls Over Payments Made by the
                    Transportation Accounts Payable System

10/19/93   A31529   Audit of Region 5's Controls Over the Credit Card
                    Program

11/09/93   A32138   Audit of Business Service Center Operations, Region 7

11/10/93   A32731   Limited Audit of the Office of Administration's Fiscal
                    Year 1993 Section 2 Assurance Statement

11/16/93   A33061   Limited Audit of the Federal Property Resources Service,
                    Fiscal Year 1993 Section 2 Assurance Statement

11/19/93   A33062   Limited Audit of the Public Buildings Service Fiscal
                    Year 1993 Section 2 Assurance Statement

11/19/93   A33410   Limited Audit of the Federal Supply Service's Fiscal Year
                    1993 Section 2 Assurance Statement

11/19/93   A33744   Limited Audit of Information Resources Management
                    Service's Fiscal Year 1993 Section 2 Assurance
                    Statement




                                                                                 Office of Inspector General 49
                     A en                 // . . . Audit          port Register
                                                                                         Financial
                                                                                    Recommendations-.-~~~~~-.-   ---

                                                                                 Funds To      Questioned
Date of    Audit                                                                 Be Put To    (Unsupported)
Report     Number                             Title                              Better Use        Costs

11/19/93   A33745      Limited Audit of the Office of FTS2000 Assurance
                       Statement, Fiscal Year 1993 Section 2

11/29/93   A31864      Audit of the Propriety of GSA Employees Accepting Cash
                       Awards and Gifts from Client Agencies

11/30/93   A32732      Limited Audit of the Chief Financial Officer's Fiscal
                       Year 1993 Section 2 Federal Managers' Financial
                       Integrity Act Assurance Statement

12/06/93   A32734      Consolidated Report of Fiscal Year 1993, FMFIA,
                       Section 2 Assurance Statements

12/10/93   A31876      Audit of GSNs Controls Over Processing of Donated Leave
                       Transactions

12/23/93   A32733      Limited Audit of the Chief Financial Officer's Fiscal
                       Year 1993 Section 4 Federal Managers' Financial
                       Integrity Act Assurance Statement

01/13/94   A43002      Limited Audit of the General Services Administration's
                       Compliance with the Byrd Amendment Restrictions on
                       Lobbying Activities

01/28/94   A31821      Audit of Duplicate Payments to Vendors for Vehicle
                       Maintenance and Repair Services

01/31/94   A43004      Audit of Controls Over Advisory and Assistance Service
                       Contracts for Fiscal Year 1993

02/17/94   A31562      Audit of the Regional Acquisition Management Staff,
                       Region 5

02/22/94   A32115      Audit of Imprest Fund, Cashier Training and
                       Supervision

03/01/94   A32729      General Services Administration Results of the Fiscal
                       Years 1993 and 1992 Consolidated Financial Statements
                       Audit

NON..GSA INTERNAL AUDITS
03/15/94   A43028      Audit of the Thomas Jefferson Commemoration
                       Commission




50 Semiannual Report To The Congress
                         Appendix 111- Delinquent Debts

GSA's Office of the Chief Financial Officer provided the   .. Wrote demand letters directly to vehicle owners rather
following information:                                        than to insurance companies. This improves the time-
                                                              liness required for notification of a due debt and the
GSA Efforts To Improve Debt Collection                        assessment oflate payment charges.

During the period October 1, 1993 through March 31,        .. Tested a system that will result in the transmission of
1994, GSA efforts to improve debt collection and reduce       consumer debtor data to credit bureaus via diskette.
the amount of debt written off as uncollectible focused       GSA will begin reporting credit data for commercial
on upgrading the collection function and enhancing debt       debtors this year; three credit collection contractors
management. These activities included the following:          have been contacted in this regard.
                                                           .. Asked bidders at personal property sales for their
.. Participated in the IRS Tax Refund Offset Program for      taxpayer identification number. This will result in
   consumer debtors. GSA is making plans to participate       better debt collection in the event of default.
   in the IRS Business Offset Program which will begin
   in 1995 for commercial debtors.                         .. Participated with the General Accounting Office in an
                                                              audit effort to identifY certain contractor claims that
.. Hosted a forum in January to display Dun and               previously have gone undetected.
   Bradstreet software currently available on CD ROM
                                                           .. Continued to make strides in debt collection
   that provides, among other things, the location of
                                                              improvement: recognition of employees' contributions;
   business debtors.
                                                              constant upgrading of equipment and software;
.. Entered into an agreement with the Defense Data            formal training and seminars which focus on programs
   Management Center and the U.S. Postal Service to           or new developments; ongoing efforts to keep abreast
   match GSA's delinquent debtor file against Federal         of new regulations and to ensure dissemination of
   employment files to identifY delinquent debtors who        regulations' information to the various Services and
   are Federal employees.                                     Staff Offices within GSA.



Non-Federal Accounts Receivable

                                                    As of                  As of
                                               October 1, 1993         March 31 1994             Difference

 Total Amounts Due GSA                            $43,085,423            $44,384,572             $1,299,149
 Amount Delinquent                                $18,973,390            $25,888,394             $6,915,004

 Total Amount Written
 Off as Uncollectible
 Between 10/1/93 and
 3/31/94                                          $    232,743


Of the total amounts due GSA and the amounts               approximately $1.9 million and $1.0 million,
delinquent as of October 1, 1993 and March 31 1994,        respectively, are being disputed.




                                                                                     Office of Inspector General 51
                      Appendix IV . . . Reporting Requirements

The table below cross-references the reporting                                     Congress in Senate Report No. 96-829 relative to the
requirements prescribed by the Inspector General                                   1980 Supplemental Appropriations and Rescission Bill
Act of 1978, as amended, to the specific pages where                               is also cross-referenced to the appropriate page of the
they are addressed. The information requested by the                               report.



                                                       Requirement                                                                                  Page
 Inspector General Act
      Section 4(a)(2)-Review of Legislation and Regulations ......................................................................... l 7

      Section 5(a)(I)-8ignificant Problems, Abuses, and Deficiencies ........................................................... 2,5

      Section 5(a)(2)-Recommendations With Respect to Significant Problems, Abuses,
        and Deficiencies .............................................................................................................................. 2,5

      Section 5(a)(3)-Prior Recommendations Not Yet Implemented ............................................................ 27

      Section 5(a)(4)-Matters Referred to Prosecutive Authorities ............................................................. ,... 22

      Sections 5(a)(5) and 6(b)(2)-8ummcuy ofInstances Where Information Was Refused ......................... None

      Section 5(a)(6)-List of Audit Reports .................................................................................................... 29

      Section 5(a)(7)-8ummruy of Each Particularly Significant Report ....................................................... 2,5

      Section 5(a)(8)-8tatistical Tables on Management Decisions on Questioned Costs ............................. 21

      Section 5(a)(9)-8tatistical Tables on Management Decisions on Recommendations
        That Funds Be Put to Better Use ..................................................................................................... 20

      Section 5(a)( 10)-8ummruy of Each Audit Report Over 6 Months Old for Which No
        Management Decision Has Been Made ........................................................................................... None

      Section 5(a)(11)-Description and Explanation for Any Significant Revised
        Management Decision ..................................................................................................................... None

      Section 5(a)(12)-Information on Any Significant Management Decisions With Which
        the Inspector General Disagrees ..................................................................................................... None

 Senate Report No. 96-829
      Resolution of Audits ............................................................................................................................ 19

      Delinquent Debts ................................................................................................................................. 51




52 Semiannual Report To The Congress
Notes




        Office of Inspector General 53
                                       Notes




54 Semiannual Report To The Congress      j\o   U.S. GOVERNMENT PRINTING OFFICE:   1994 - 3611-893 - 700/90046
Federal Recycling Program   0   Printed on Recycled Paper
